APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Ninth Circuit, Thompson v.
Hebdon, No. 17-35019 (Nov. 27, 2018) ....... App-1
Appendix B
Order, United States Court of Appeals for
the Ninth Circuit, Thompson v. Hebdon,
No. 17-35019 (Feb. 20, 2019)..................... App-43
Appendix C
Memorandum of Decision, Thompson v.
Dauphinais, No. 3:15-cv-00218-TMB
(Nov. 7, 2016) ............................................. App-45
Appendix D
Relevant Statutory Provisions .................. App-77
Alaska Stat. § 15.13.070 (2006) .......... App-77
Alaska Stat. § 15.13.072 (2006) .......... App-79

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 17-35019
________________
DAVID THOMPSON, AARON DOWNING; JIM CRAWFORD,
DISTRICT 18 OF THE ALASKA REPUBLICAN PARTY,
v.

PlaintiffsAppellants,

HEATHER HEBDON, in Her Official Capacity as the
Executive Director of the Alaska Public Offices
Commission; TOM TEMPLE; IRENE CATALONE; RON
KING; ROBERT CLIFT; ADAM SCHWEMLEY, in Their
Official Capacities as Members of the Alaska Public
Offices Commission,
DefendantsAppellees.
________________
Argued and Submitted: June 11, 2018
Filed: November 27, 2018
________________
Before: Sidney R. Thomas, Chief Judge, and
Consuelo M. Callahan and Carlos T. Bea,
Circuit Judges.
________________
OPINION
________________

App-2
CALLAHAN, Circuit Judge:
We must decide whether an Alaska law
regulating campaign contributions violates the First
Amendment. At issue are Alaska’s limit on
contributions made by individuals to candidates, its
limit on contributions made by individuals to electionrelated groups, its limit on political party-to-candidate
contributions, and its limit on the total funds a
candidate may receive from out-of-state residents. The
district court upheld all four provisions against a
constitutional challenge by three individuals and a
subdivision of the Alaska Republican Party.
Affirmance on the individual-to-candidate and
individual-to-group limits is compelled by Lair v. Motl,
873 F.3d 1170 (9th Cir. 2017) (Lair III), reh’g en banc
denied, 889 F.3d 571 (9th Cir. 2018), and California
Medical Ass’n v. FEC, 453 U.S. 182 (1981),
respectively, and we also uphold the political party-tocandidate limit. However, we reverse as to the
nonresident limit. While the first three restrictions
are narrowly tailored to prevent quid pro quo
corruption or its appearance and thus do not
impermissibly infringe constitutional rights, the
nonresident limit does not target an “important state
interest” and therefore violates the First Amendment.
I.
A.
Alaska
has
long
regulated
campaign
contributions to political candidates. In 1974, Alaska
enacted a statute prohibiting individuals from
contributing more than $1,000 annually to a
candidate. See Alaska v. Alaska Civil Liberties Union,
978 P.2d 597, 601 (Alaska 1991). One former Alaska

App-3
state representative testified in the bench trial in this
case that, even under this $1,000 limit, “there was an
inordinate influence from contributions on the actions
of the legislature.” Thompson v. Dauphinais, 217 F.
Supp. 3d 1023, 1029 (D. Alaska 2016). A former
member of the Anchorage Assembly, Charles
Wohlforth, testified that “the system was rigged by
money[ed] interests and that too frequently the
decisions of the assembly were controlled by those
interests and their desires, based on the kind of
contributions they would make.” Id. at 1030
(alteration in original).
In 1996, the Alaska Legislature enacted a revised
campaign finance law “to restore the public’s trust in
the electoral process and to foster good government.”
1996 Alaska Sess. Laws ch. 48 § 1(b). Among other
things, the law lowered the annual limit on
contributions by individuals to a candidate from
$1,000 to $500 and set a $500 limit on annual
contributions by individuals to a group that is not a
political party. Id. §§ 10-11. The law also set aggregate
limits on the amount candidates could accept from
nonresidents of Alaska. In 2003, the Alaska
legislature revised the 1996 law by raising the
individual-to-candidate and individual-to-group limits
from $500 to $1,000. 2003 Alaska Sess. Laws ch. 108,
§§ 8-10.
In 2006, a ballot initiative—Ballot Measure 1 (the
“2006 Initiative”)—proposed a further revision of the
limits. 2006 Alaska Laws Initiative Meas. 1, § 1. The
2006 Initiative is the law at issue here. The 2006
Initiative returned the individual-to-candidate and
individual-to-group limits to their pre-2003 levels of

App-4
$500 per year. Alaska Stat. § 15.13.070(b)(1). It also
capped the amount a non-political party group could
contribute to a candidate at $1,000, restricted the
amount candidates could receive from nonresidents to
$3,000 per year, and limited the amount a political
party—including its subdivisions—could contribute to
a candidate. Alaska Stat. §§ 15.13.070(c) & (d),
15.13.072(a)(2) & (e)(3), 15.13.400(15). The voter
information packet included the following statement
of the 2006 Initiative’s purpose:
Corruption is not limited to one party or
individual. Ethics should be not only
bipartisan but also universal. From the
Abramoff and Jefferson scandals in
Washington D.C. to side deals in Juneau,
special interests are becoming bolder every
day. They used to try to buy elections. Now
they are trying to buy the legislators
themselves.
The 2006 Initiative passed with 73% of the popular
vote.
B.
Plaintiffs are three individuals and a subdivision
of the Alaska Republican Party. In 2015, Plaintiffs
brought a First Amendment challenge against
Defendants, Alaska public officials, targeting, as
relevant to this appeal, (1) the $500 annual limit on
an individual contribution to a political candidate,
(2) the $500 limit on an individual contribution to a
non-political party group, (3) annual limits on what a
political party—including its subdivisions—may
contribute to a candidate, and (4) the annual
aggregate limit on contributions a candidate may

App-5
accept from nonresidents of Alaska. Plaintiffs sought
a declaratory judgment that each of the challenged
provisions is unconstitutional, a permanent injunction
prohibiting enforcement of the challenged provisions,
and costs and attorney’s fees under 42 U.S.C. § 1983.
Thompson, 217 F. Supp. 3d at 1027.
Two of the Plaintiffs, Aaron Downing and Jim
Crawford, are Alaska residents who wanted to, but
legally could not, contribute more than $500 to
individual candidates running for state or municipal
office. Crawford would also like to give more than $500
to a non-political party group. David Thompson is a
Wisconsin resident whose brother-in-law is Alaska
State Representative Wes Keller. Thompson sent
Keller a $100 check for his campaign in 2015, but
Keller returned the check because the campaign had
already hit the $3,000 nonresident limit. Finally,
District 18 is a subdivision of the Alaska Republican
Party that was limited in the amount it could give to
Amy Demboski’s mayoral campaign due to Alaska’s
aggregate limit on the amount a campaign can accept
from a political party.
After granting Alaska’s motion for partial
summary judgment for lack of standing on certain of
Plaintiffs’ claims, 1 the district court held a seven-day
bench trial. In November 2016, the district court
issued a decision rejecting all of Thompson’s
remaining claims. Thompson, 217 F. Supp. 3d at 102740. Applying the intermediate scrutiny standard for
evaluating contribution limitations set forth in
1 The district court’s partial summary judgment determination
is not at issue in this appeal.

App-6
Montana Right to Life Ass’n v. Eddleman, 343 F.3d
1085 (9th Cir. 2003), the district court determined that
each of the four challenged provisions was aimed at
the “important state interest” of combating quid pro
quo corruption or its appearance, and was “closely
drawn” to meet that interest. Thompson, 217 F. Supp.
3d at 1040. Plaintiffs (collectively, “Thompson”) timely
appealed.
II.
“We review a district court’s legal determinations,
including constitutional rulings, de novo.” Berger v.
City of Seattle, 569 F.3d 1029, 1035 (9th Cir. 2009) (en
banc). “When the issue presented involves the First
Amendment . . . [h]istorical questions of fact (such as
credibility determinations or ordinary weighing of
conflicting evidence) are reviewed for clear error,
while constitutional questions of fact (such as whether
certain restrictions create a ‘severe burden’ on an
individual’s First Amendment rights) are reviewed de
novo.” Prete v. Bradbury, 438 F.3d 949, 960 (9th Cir.
2006).
III.
“The starting place in the analysis of the
constitutionality of campaign finance reform
legislation is Buckley v. Valeo, 424 U.S. 1 (1976) [(per
curiam)].” Eddleman, 343 F.3d at 1090. The Court in
Buckley explained that limitations on campaign
contributions implicate the contributor’s First
Amendment rights. Buckley, 424 U.S. at 20-21. But it
distinguished limits on expenditures made by
candidates from limits on contributions made to
candidates. Id. The Court reasoned that the former
amounts to a direct affront to the regulated entity’s

App-7
free speech rights, while the latter “entails only a
marginal restriction upon the contributor’s ability to
engage in free communication.” Id. at 19-21. Buckley
further explained that
[a] contribution serves as a general
expression of support for the candidate and
his views, but does not communicate the
underlying basis for the support. The
quantity of communication by the contributor
does not increase perceptibly with the size of
his contribution, since the expression rests
solely on the undifferentiated, symbolic act of
contributing. . . . A limitation on the amount
of money a person may give to a candidate or
campaign organization thus involves little
direct
restraint
on
his
political
communication, for it permits the symbolic
expression of support evidenced by a
contribution but does not in any way infringe
the contributor’s freedom to discuss
candidates and issues.
Id. at 21. Put another way, unlike expenditure
limitations,
“limiting
contributions
[leaves]
communication significantly unimpaired.” Nixon v.
Shrink Mo. Gov’t PAC, 528 U.S. 377, 387 (2000).
Accordingly, while expenditure limitations must
survive exacting scrutiny, limits on contributions are
“subject to [a] relatively complaisant review under the
First Amendment.” FEC v. Beaumont, 539 U.S. 146,
161 (2003); see also Shrink Mo., 528 U.S. at 387-88.
The question is whether the law targets an “important
state interest,” and, if so, “whether ‘the contribution
limitation is so radical in effect as to render political

App-8
association ineffective, drive the sound of the
candidate’s voice below the level of notice, and render
contributions pointless.’” Eddleman, 343 F.3d at 109192 (quoting Shrink Mo., 528 U.S. at 397).
The bottom line is this: After Buckley and
Shrink Missouri, state campaign contribution
limits will be upheld if (1) there is adequate
evidence that the limitation furthers a
sufficiently important state interest, and (2)
if the limits are “closely drawn”—i.e., if they
(a) focus narrowly on the state’s interest, (b)
leave the contributor free to affiliate with a
candidate, and (c) allow the candidate to
amass sufficient resources to wage an
effective campaign.
Id. at 1092. The State bears the burden of satisfying
both prongs of this inquiry. McCutcheon v. FEC, 572
U.S. 185, 210 (2014). We recently reaffirmed this test
in Lair III, 873 F.3d at 1178-80.
A.
In recent years, the Supreme Court has limited
the type of state interest that justifies a First
Amendment intrusion on political contributions. After
Citizens United and McCutcheon, states must show
that any such limitation serves to combat actual quid
pro quo corruption or its appearance. McCutcheon, 572
U.S. at 206-07; Citizens United v. FEC, 558 U.S. 310,
359-60 (2010). It no longer suffices to show that the
limitation targets “undue influence” in politics.
McCutcheon, 572 U.S. at 208 (holding that “the
possibility that an individual who spends large sums
may garner ‘influence over or access to’ elected
officials or political parties” is not a sufficient state

App-9
interest for limiting campaign contributions (quoting
Citizens United, 558 U.S. at 359)); see also Lair III, 873
F.3d at 1188 (Bea, J., dissenting) (“Citizens
United . . . narrowed what can constitute a valid
important state interest . . . to only the state’s interest
in eliminating or reducing quid pro quo corruption or
its appearance.”).
The Court’s limitation on what constitutes an
“important state interest” does not necessarily
undermine the government’s ability to cap
contributions made directly to a candidate. See
McCutcheon, 572 U.S. at 192-93 (“[W]e have
previously upheld [limits on direct contributions to a
candidate] as serving the permissible objective of
combatting corruption.”); Citizens United, 558 U.S. at
356-57. That is because the appearance of such
corruption is “‘inherent in a regime of large individual
financial contributions’ to particular candidates.” See
McCutcheon, 572 U.S. at 207. To address that risk,
states may implement prophylactic limits because
individual-to-candidate contributions could compel
“elected officials [to be] influenced to act contrary to
their obligations of office by the prospect of financial
gain to themselves or infusions of money into their
campaigns.” Id. at 225 (emphasis omitted) (quoting
FEC v. Nat’l Conservative Political Action Comm., 470
U.S. 480, 497 (1985)). Indeed, “restrictions on direct
contributions are preventative, because few if any
contributions to candidates will involve [actual] quid
pro quo arrangements.” Citizens United, 558 U.S. at
357.
In Eddleman, we held that the quantum of
evidence necessary to justify a legitimate state

App-10
interest is low: the perceived threat must be merely
more than “mere conjecture” and “not . . . ‘illusory.’”
Eddleman, 343 F.3d at 1092. 2
B.
We turn to assessing the four challenged
provisions of the 2006 Initiative. For each, we consider
whether it is (1) targeted at an “important state
interest,” and, if so, (2) whether it is “closely drawn” to
meet that interest. Eddleman, 343 F.3d at 1092.
i.
We begin with the $500 individual-to-candidate
contribution limit. Thompson challenges both Alaska’s
power to impose the limit at all and its intent in
halving the prior $1,000 limit with the challenged
$500 limit.
Thompson first argues that Alaska’s evidence
amounts to showing only an “undue influence” by
contributors on candidates for office. In light of Lair
III, we reject this argument. Alaska proffered
substantial evidence of attempts to secure votes for
contributions. For example, Senator Coghill testified
that he was approached by a lobbyist demanding his
vote, saying: “This is why we gave to you. Now we need
your help.” Similarly, Anchorage Assembly member
McCutcheon and Citizens United created some doubt as to the
continuing vitality of the standard for the evidentiary burden we
announced in Eddleman. See Lair v. Motl, 889 F.3d 571, 575 (9th
Cir. 2018) (Ikuta, J., dissenting from denial of rehearing en banc)
(“This highly attenuated standard is two steps removed from the
standard explained by Citizens United and McCutcheon.”).
However, in Lair III we reaffirmed this evidentiary standard, 873
F.3d at 1178, and we denied a petition for rehearing en banc, 889
F.3d at 572.
2

App-11
Bob Bell testified that an executive offered to hold a
fundraiser for him if he would support a private prison
project. When he refused, the executive held a
fundraiser for his opponent instead. These examples
demonstrate attempts by individuals to affect public
officials’ voting behavior through the prospect of
financial gain, thereby giving rise to a risk of quid pro
quo corruption. Finally, there is Alaska’s VECO public
corruption scandal, which came to light shortly after
the 2006 Initiative was passed. That scandal snared
roughly 10% of Alaska’s legislature in a scheme of
accepting money from VECO, an oil services firm, in
return for votes and other political favors. 3 Under Lair
III, we are compelled to conclude that the State’s
evidence suffices to show that the individual-tocandidate limit “further[s] the important state
interest of preventing quid pro quo corruption or its
appearance.” 873 F.3d at 1179-80.

Thompson dismisses the VECO scandal as irrelevant because
Alaska fails to show that it was the impetus for the 2006
Initiative. As noted, however, the legislative purpose of the
initiative is beside the point. But Thompson’s argument fails for
an additional reason. He reasons that prosecuting violators
under bribery laws—as occurred with the VECO scandal—is the
only legitimate means of preventing corruption. Not so. By
allowing limits on contributions directly to candidates as a
prophylactic measure, the Supreme Court has made clear that
the state interest of preventing corruption is not limited to
prosecuting instances of past corruption. See McCutcheon, 572
U.S. at 196-98 (citing Buckley, 424 U.S. at 26-29); Shrink Mo.,
528 U.S. at 389 (“Congress [can] constitutionally address the
power of money ‘to influence governmental action’ in ways less
‘blatant and specific’ than bribery.” (quoting Buckley, 424 U.S. at
28)).
3

App-12
Thompson next argues that Alaska fails to show
that the legislative purpose for cutting the individual
contribution limit in half was to prevent quid pro quo
corruption or its appearance. According to Thompson,
Alaska needed to but failed to explain why $500 is
better suited to combating corruption than the prior
$1,000 limit. Absent such a showing, Thompson
asserts, the $500 limit targets at most the “influence”
and “pressure” that contributors can have on elected
officials.
We are unpersuaded. First, the State must
demonstrate only that when the 2006 Initiative was
approved by the voters “the risk of actual or perceived
quid pro quo corruption is more than ‘mere
conjecture.’” Lair III, 873 F.3d at 1178 (quoting
Eddleman, 343 F.3d at 1092). We have rejected—
albeit sub silentio—such purpose-based arguments in
the past. In Yamada v. Snipes, 786 F.3d 1182, 120506 (9th Cir. 2015), we held that a limit on
contributions by government contractors withstood
scrutiny because it “target[ed] . . . the contributions
most closely linked to actual and perceived quid pro
quo corruption.” This was notwithstanding the fact
that the ban’s proponents in the legislature
articulated other goals, including an intent to create a
“level playing field.” Yamada v. Weaver, 872 F. Supp.
2d 1023, 1058 n.26 (D. Haw. 2012). Thompson’s
proposed rule—requiring Alaska to show that
reducing the limit from $1,000 to $500 is necessary to
combat corruption—would significantly restrict the
deference the Supreme Court has given to states to
determine how precisely to advance the important
state interest of combating corruption.

App-13
Second, Thompson’s argument about the exact
amount of the limit misses the mark because the first
step of Eddleman “is divorced from the actual amount
of the limits—it is a threshold question whether any
level of limitation is justified.” Lair III, 873 F.3d at
1178.
Concluding, as we must, that the individual-tocandidate contribution limit targets an “important
state interest,” we turn to the second Eddleman factor:
whether the limit is “closely drawn.” Lair III, 873 F.3d
at 1180; Eddleman, 343 F.3d at 1092. To pass
scrutiny, Alaska must show that the limit “focus[es]
narrowly on the state’s interest,” “leave[s] the
contributor free to affiliate with a candidate,” and
“allow[s] the candidate to amass sufficient resources
to wage an effective campaign.” Eddleman, 343 F.3d
at 1092. “In making this determination, we look at all
dollars likely to be forthcoming in a campaign, rather
than the isolated contribution, and we also consider
factors such as whether the candidate can look
elsewhere for money, the percentage of contributions
that are affected, the total cost of a campaign, and how
much money each candidate would lose.” Id. at 1094
(internal citations omitted).
Narrow Focus. Whether a contribution limit has
a narrow focus requires us to “assess the ‘fit between
the stated governmental objective and the means
selected to achieve that objective,’ looking at whether
the limit[] target[s] ‘the narrow aspect of political
association where the actuality and potential for
corruption have been identified.’” Lair III, 873 F.3d at
1180
(internal
citations
omitted)
(quoting
McCutcheon, 572 U.S. at 199 and Buckley, 424 U.S. at

App-14
28). Consistent with the intermediate scrutiny we
apply to contribution limits, the fit need not be
“perfect, but reasonable.” McCutcheon, 572 U.S. at 218
(quoting Bd. of Trustees of State Univ. of N.Y. v. Fox,
492 U.S. 469, 480 (1989)). Thus, while the 2006
Initiative need not employ “the least restrictive
means,” it should be “narrowly tailored to achieve the
desired objective.” Id. (quoting Fox, 492 U.S. at 480).
Thompson argues that the individual-tocandidate limit lacks a narrow focus because, he
asserts, Alaska fails to show that reducing the limit
from $1,000 to $500 was necessary, and because the
limit is among the lowest in the nation. We have
already explained that Alaska need not show that it
was necessary to reduce the contribution limit to $500,
only that the new limit targets quid pro quo corruption
or its appearance. See Buckley, 424 U.S. at 30. On the
question of whether the $500 limit is “narrowly
focused” on that interest, we must uphold the dollar
amount unless it is “so radical in effect as to render
political association ineffective, drive the sound of a
candidate’s voice below the level of notice, and render
contributions pointless.” Shrink Mo., 528 U.S. at 397.
Although the $500 limit is low compared to the
laws of most other states, whether it is unreasonably
low requires a deeper dive. The $500 limit affects only
the top 12.6% of contributions that all candidates
received in elections occurring after the initiative
passed in 2006. This is on par with the Montana law’s
limit, which we upheld in Eddleman and Lair III. That
limit targeted the top 10% of contributions—i.e., “the
high-end contributions most likely to result in actual
or perceived corruption.” Lair III, 873 F.3d at 1181;

App-15
Eddleman, 343 F.3d at 1094. 4 Moreover, although the
$500 limit is on the low-end of the range of limits
adopted by various states, it is not an outlier. At least
four other states (Colorado, Kansas, Maine, and
Montana) have the same or lower limit for state house
candidates, as do at least five comparably sized cities
(Austin, Portland, San Francisco, Santa Cruz, and
Seattle). We recently upheld a comparable limit. Lair
III, 873 F.3d at 1174 tbls.2 & 3.
Contributors’ Ability to Affiliate With
Candidates. Thompson does not argue that the $500
individual-to-candidate limit prevents supporters
from affiliating with candidates. His tacit
acknowledgment that Alaska has met its burden on
this factor is well taken. As with Montana’s limit
upheld in Eddleman and Lair III, Alaska “not only
permits such affiliation through direct monetary
contributions, but also ‘in ways other than direct
contributions, such as donating money to a candidate’s
political party, volunteering . . . , sending direct
mail . . . , or taking out independent newspaper, radio,
or television ads to convey . . . support.’” Lair III, 873
F.3d at 1184 (alterations in original) (quoting
Eddleman, 343 F.3d at 1094). Accordingly, we

Thompson relies on a different metric: the percentage of
campaign dollars that came from contributors giving the $500
maximum, which he asserts amounted to nearly 40%. Regardless
of the accuracy of Thompson’s statistic, it is not well-suited to
determining “the percentage of contributions that are affected.”
Eddleman, 343 F.3d at 1094. It merely reflects that large
contributions will command a relatively outsize share of a
candidate’s campaign war chest.
4

App-16
conclude that the $500 limit does not hobble
contributors’ ability to affiliate with candidates.
Candidates’ Ability to Campaign Effectively.
Thompson argues the $500 individual-to-candidate
limit is impermissibly low because, he asserts, it
favors incumbents at the expense of challengers,
causes campaigns in competitive races to run deficits,
and is not indexed for inflation. Each of these
contentions misses its mark, however, because none
directly addresses the dispositive question: whether
the individual-to-candidate limit “impede[s] a
candidate’s ability to ‘amass the resources necessary
for effective advocacy.’” Eddleman, 343 F.3d at 1091
(quoting Shrink Mo., 528 U.S. at 397). A limit does so
if it is “so radical in effect as to render political
association ineffective, drive the sound of a candidate’s
voice below the level of notice, and render
contributions pointless.” Shrink Mo., 528 U.S. at 397.5
The district court weighed expert testimony from
both sides in concluding that the $500 limits allow
candidates to “amass” the necessary funds. 6
Thompson relies heavily on Randall v. Sorrell, 548 U.S. 230
(2006). It appears that Justice Breyer’s plurality opinion in
Randall, if binding, may aid Thompson’s position because at least
one of the “warning signs” identified in Randall is present here.
However, as we recognized in Lair v. Bullock, 697 F.3d 1200,
1204 (9th Cir. 2012) (Lair I), and reiterated in Lair v. Bullock,
798 F.3d 736, 747 (9th Cir. 2015) (Lair II), Randall is not binding
authority because no opinion commanded a majority of the Court.
5

6 The testimony and the district court’s decision addressed
together the relevant inquiry of both the $500 individual-tocandidate limit and the $500 individual-to-group limit. The
individual-to-group limit is discussed in more detail in Part
III.B.ii of our opinion.

App-17
Thompson, 217 F. Supp. 3d at 1035. Thompson
submitted the testimony of Michael Gene Pauley, a
campaign manager and consultant, who stated his
belief that the $500 limits are too low because they are
not indexed for inflation and because the limits are
annual in nature. Id. at 1034-35. Thompson also
offered the testimony of Senator John Coghill, who
stated that “he has always been able to raise sufficient
funds to run an effective campaign, but that it was
‘just harder’ under the current $500 limits than under
the $1,000 limits because ‘the lower limits do cause
you to have to go broad.’” Id. at 1035.
Thompson also called Clark Bensen, a consultant
and former director of political analysis for the
Republican National Committee, who testified that,
under the $500 limits, candidates often spend more than
they raise. Id. The district court did not credit Bensen’s
testimony, however, because he acknowledged that his
analysis was based on exaggerated estimates. Id.
Moreover, Bensen’s determination that campaigns
run deficits under current law is also unpersuasive
because it is analytically unsound. By simply
comparing total contributions to total expenditures,
Bensen did not control for certain expenditures that
have little or nothing to do with running an effective
campaign—e.g., charitable contributions, loan
repayments, and payment transfers to future
campaign accounts. Campaigns often must make such
non-campaign-related expenditures because they are
required to run a zero balance at the end of the
campaign. Considering the analytical flaws in
Bensen’s analysis and his own admission that “I didn’t
do a very sophisticated analysis . . . . It’s not like I
didn’t do it, but I didn’t do it well, shall we say, or

App-18
completely,” id., we hold that the district court’s
credibility determination was not clearly erroneous.
See Prete, 438 F.3d at 960. Accordingly, we, like the
district court, discount Bensen’s testimony.
Defendants relied on the expert testimony of
Thomas Begich and John-Henry Heckendorn, both of
whom are political consultants. Thompson, 217 F.
Supp. 3d at 1035. Both testified that candidates—
challengers and incumbents alike—can run effective
campaigns under the $500 limits and “have done so.”
Id. They explained that the candidate who raises the
most money does not necessarily win the election, that
it is not—contrary to Thompson’s experts’ testimony—
getting more expensive to run campaigns, and that the
limits do not favor incumbents over challengers, also
contrary to Thompson’s claim. Id. at 1035-36. For
example, they testified that while the cost of some
campaign elements have gone up, others have gotten
cheaper, such as advertising and outreach to voters
through new technologies. Id.
Additional record evidence supports Defendants’
position. For example, in the 2012 and 2014 election
cycles, several successful non-incumbent candidates
raised in excess of $100,000 from individual
contributions alone. While different races will require
varying levels of fundraising, witness testimony
established that amassing $100,000 allows a
candidate to mount an effective campaign. For
example, TV spending by a state legislative candidate
generally would not exceed $40,000; radio advertising
could cost $20,000; consultant services could cost
another $20,000; a mailer might cost up to $3,000; and
signs could cost up to $10,000. Thus, even if a

App-19
candidate spent the maximum estimated expenditure
in each of these categories, she would still spend less
than $100,000. And that sum does not include the
candidate’s total campaign war chest. Candidates also
receive contributions from political action committees
(“PACs”) and political parties.
Viewing the evidence as a whole, we agree with
the district court that the $500 individual-tocandidate limit allows candidates to amass sufficient
funds to run an effective campaign. 7 And because
Defendants also show that the limit is narrowly
focused on Alaska’s interest in combating quid pro quo
corruption or its appearance and does not impede an
individual’s ability to associate with a candidate, we
affirm the district court’s determination that the $500
It is unclear whether a district court’s determination that a
contribution limit allows candidates to amass sufficient funds to
run an effective campaign is owed any deference. Arguably, such
a finding is a “constitutional question of fact,” which we review
de novo. Prete, 438 F.3d at 960. In reversing the district court in
Lair III, we implicitly applied de novo review. Lair III, 873 F.3d
at 1184-86 (holding that “Montana’s limits do not prevent
candidates from amassing sufficient resources to campaign
effectively” without giving any deference to the district court and
without identifying any clear error); see id. at 1178 (“In the First
Amendment context . . . ‘our review [of the district court’s fact
finding] is more rigorous than other cases.’” (second alteration in
original) (quoting Lair II, 798 F.3d at 748 n.8)). In other First
Amendment contexts, we have suggested some level of deference
is appropriate. See, e.g., Newton v. Nat’l Broad. Co., 930 F.2d 662,
670 (9th Cir. 1990) (“[W]e must simultaneously ensure the
appropriate appellate protection of First Amendment values and
still defer to the findings of the trier of fact.”). We need not resolve
this question because we agree with the district court’s
conclusion based on our own independent view of the evidence.
7

App-20
individual-to-candidate limit is “closely drawn.”
Eddleman, 343 F.3d at 1092.
ii.
At
first
glance,
the
individual-to-group
contribution limit of $500 appears to present a closer
question because that limit reflects a more attenuated
risk of quid pro quo corruption or its appearance than
does
the
individual-to-candidate
limit.
In
McCutcheon, the Supreme Court rejected a limitation
that capped aggregate contributions to PACs. 572 U.S.
at 210-18. Because money was not transacted directly
between contributor and candidate, “there [wa]s not
the same risk of quid pro quo corruption or its
appearance.” Id. at 210. While the government
articulated an important interest in preventing
circumvention of the base limits, the Court held that
the “Government ha[d] not carried its burden of
demonstrating that the aggregate limits further[ed]
its anticircumvention interest.” Id. at 211. The Court
did not, however, call into doubt anticircumvention as
an important state interest; the government simply
failed to meet its evidentiary burden.
McCutcheon’s tacit embrace of anticircumvention
as an important state interest in combating quid pro
quo corruption or its appearance means that another
Supreme Court case, California Medical Ass’n, 453
U.S. 182, remains good law. In that case, applying
intermediate scrutiny to limits on individual
contributions to PACs, the Court upheld the limits as
“further[ing] the governmental interest in preventing
the actual or apparent corruption of the political
process” because they prevent contributors from
“evad[ing] the . . . limit on contributions to

App-21
candidates . . . by channeling funds through a
multicandidate political committee.” Cal. Med. Ass’n,
453 U.S. at 197-98; see also FEC v. Colo. Republican
Fed. Campaign Comm’n, 533 U.S. 431, 456 (2001)
(“[A]ll Members of the Court agree that circumvention
is a valid theory of corruption . . . .”); Thalheimer v.
City of San Diego, 645 F.3d 1109, 1125 (9th Cir. 2011)
(“[T]here is nothing in the explicit holdings or broad
reasoning of Citizens United that invalidates the anticircumvention interest in the context of limitations on
direct candidate contributions.”). We conclude that
Alaska has demonstrated the same interest here
where the risk of circumvention of the individual-tocandidate limit is apparent: under Alaska law, any
two individuals could form a “group,” which could then
funnel money to a candidate. Alaska Stat.
§ 15.13.400(8)(B). Such groups could easily become
pass-through entities for, say, a couple that wants to
contribute more than the $500 individual-to-candidate
limit.
If, as we hold, the individual-to-candidate limit is
constitutional, then under California Medical Ass’n so
too is Alaska’s law that prevents evasion of that limit.
iii.
Alaska law limits the amount a political party
may contribute to a municipal candidate to $5,000.
Alaska
Stat.
§§ 15.13.070(d),
15.13.400(15).
Thompson does not challenge the dollar amount; he
instead argues that the law’s aggregation of political
party sub-units is unconstitutional. He reasons that
limiting party sub-units to the $5,000 limit but not
limiting multiple labor-union PACs to the same limit
is discriminatory.

App-22
Thompson’s discriminatory treatment argument
fails because independent labor union PACs are not
analogous to political party sub-units. Party subunits, by definition, are subsidiaries of a parent
entity—the umbrella political party. As such, they
share the objectives and rules of the party. In the past,
we have observed without remark that at least one
other state similarly aggregates party sub-units for
purposes of campaign contribution limits. See, e.g.,
Lair II, 798 F.3d at 740 (“Montana treats all
committees that are affiliated with a political party as
one entity.”). Different labor unions, by contrast, are
entirely different entities. Moreover, political parties
may donate more than labor union PACs ($5,000
versus $1,000), which undercuts the basis for a direct
comparison between the two disparate sets of
organizations. Alaska Stat. § 15.13.070(c), (d). We
therefore reject Thompson’s inchoate disparate
treatment argument and uphold the political party-tocandidate limit. 8
iv.
Finally, we address Thompson’s challenge to
Alaska’s nonresident aggregate limit, which bars a
candidate from accepting more than $3,000 per year
from individuals who are not residents of Alaska.
Alaska Stat. § 15.13.072(a)(2), (e). This particular
provision prevented Thompson from making a desired
$100 contribution to a candidate for the Alaska House
of Representatives—his brother-in-law—because his
8 Our holding should not be construed as foreclosing a
constitutional challenge to the dollar amount of Alaska’s (or some
other state’s) limit on political party-to-candidate contributions.

App-23
brother-in-law had already received $3,000 in out-ofstate contributions.
The district court held that the nonresident
aggregate limit serves an anti-corruption purpose.
The court cited Alaska’s unique vulnerability to
“exploitation by outside industry and interests,” and
referenced trial testimony that those entities “can and
do exert pressure on their employees to make
contributions to state and municipal candidates.”
Thompson, 217 F. Supp. 3d at 1039. The court
determined that the nonresident limit therefore
furthers Alaska’s sufficiently important
interest in preventing quid pro quo corruption
or its appearance in two ways. First, [it]
furthers the State’s anticorruption interest
directly by avoiding large amounts of out-ofstate money from being contributed to a
single candidate, thus reducing the
appearance that the candidate feels obligated
to outside interests over those of his
constituents. Second, the nonresident
aggregate limit discourages circumvention of
the $500 base limit and other game-playing
by outside interests, particularly given [the
Alaska Public Offices Commission’s] limited
ability and jurisdiction to investigate and
prosecute out-of-state violations of Alaska’s
campaign finance laws.
Id.
Taking the district court’s evidentiary findings as
true, on de novo review we cannot agree that the
nonresident limit targets quid pro quo corruption or
its appearance. At most, the law aims to curb

App-24
perceived
“undue
influence”
of
out-of-state
contributors—an interest that is no longer sound after
Citizens United and McCutcheon. McCutcheon, 572
U.S. at 206-08. Indeed, Alaska’s argument that the
nonresident limit “reduces the appearance that a
candidate will be obligated to outside interests rather
than constituents” says nothing about corruption. 9 It
is not enough to show that out-of-state firms—and
particularly those wishing to exploit Alaska’s natural
resources—“can and do exert pressure on their
employees to make contributions to state and
municipal candidates.” Thompson, 217 F. Supp. 3d at
1039.
Moreover, even if we agreed with Alaska that
limiting the inflow of contributions from out-of-state
extractive industries served an anti-corruption
interest, the nonresident aggregate limit is a poor fit.
Out-of-state interests can still maximize their
influence across a large number of candidates—they
just need to be early players so that they can
contribute the maximum $500 donation before each of
those candidates reaches the $3,000 limit.
McCutcheon is instructive on this point. There,
the Court invalidated aggregate contribution limits
that allowed an individual to contribute the maximum
to multiple candidates but not to any additional
candidates once the contributor hit the aggregate
limit. 572 U.S. at 210-18. The Court held that the law
9 In Landell v. Sorrell, the Second Circuit opined that the
Alaska Supreme Court’s upholding of the nonresident limit “is a
sharp departure from the corruption analysis adopted by the
Supreme Court in Buckley and Shrink.” 382 F.3d 91, 148 (2d Cir.
2004), rev’d on other grounds sub nom. Randall, 548 U.S. 230.

App-25
was a poor fit for combating quid pro quo corruption or
its appearance because contributions to a candidate
before a contributor has reached the aggregate limit
are not somehow less corrupting than contributions to
another candidate after the aggregate limit is reached.
See id.
Alaska’s showing as to its nonresident limit is
analogous. Alaska fails to show why an out-of-state
individual’s early contribution is not corrupting,
whereas a later individual’s contribution—i.e., a
contribution made after the candidate has already
amassed $3,000 in out-of-state funds—is corrupting.
Nor does Alaska show that an out-of-state
contribution of $500 is inherently more corrupting
than a like in-state contribution—only the former of
which is curbed under Alaska’s nonresident limit.
Alaska fails to demonstrate that the risk of quid pro
quo corruption turns on a particular donor’s
geography. Accordingly, while we do not foreclose the
possibility that a state could limit out-of-state
contributions in furtherance of an anti-corruption
interest, Alaska’s aggregate limit on what a candidate
may receive is a poor fit.
As an alternative defense of the law, Alaska
argues that the nonresident limit targets the
important state interest of protecting its system of
self-governance. We reject Alaska’s proffered state
interest for three reasons.
First, what Alaska calls “self-governance” is really
a re-branding of the interest of combating influence
and access that the Supreme Court has squarely
rejected. To understand Alaska’s proffered state
interest, it is important to be clear on what the State

App-26
does not mean by “self-governance.” In the distinct
context of a law restricting “who may exercise official,
legislative powers,” we recognized “self-governance”
as a legitimate state interest. Chula Vista Citizens for
Jobs & Fair Competition v. Norris, 782 F.3d 520, 531
(9th Cir. 2015) (en banc). In Norris, we used the term
“self-governance” to mean a state’s interest in
controlling who governs.
Alaska’s (and the dissent’s) proffered state
interest is materially different from what we called
self-governance in Norris. Alaska’s version of “selfgovernance” is concerned with limiting not who
governs (as in Norris) but who is allowed to contribute
to the campaigns of those who would govern. Indeed,
the dissent correctly characterizes Alaska’s proffered
interest as seeking “to ensure that its legislators are
responsive to the individuals that they represent, not
to out-of-state interests.” Dissent at 37. The premise
of Alaska’s concern with “outside control” is that
Alaska state officials will feel pressure to kowtow to
out-of-state
entities
because
of
nonresident
contributions.
The dissent makes a cogent case for the view that
states should be able to limit who may “directly
influence the outcome of an election” by making
financial contributions. See Dissent at 37. But that
debate is over. The Supreme Court has expressly
considered and rejected those arguments. See
McCutcheon, 572 U.S. at 206-08 (holding that states
do not have a legitimate interest in curbing “‘influence
over or access to’ elected officials” by individuals
“spend[ing] large sums” (quoting Citizens United, 558
U.S. at 359)). In short, Alaska’s proffered interest in

App-27
“self-governance” is indistinguishable from the
disavowed state interest in combating “influence over
or access to” public officials. 10
Second, even if Alaska’s “self-governance” interest
could be construed as distinct from the interest in
combating influence and access, the Supreme Court’s
recent campaign finance decisions leave no room for
us to accept the State’s proffered interest. The
Supreme Court’s opinions articulate “only one”
narrowly defined legitimate state interest in capping
campaign contributions: “preventing quid pro quo
corruption or its appearance.” McCutcheon, 572 U.S.
at 206-07. In McCutcheon, its banner campaign
contribution case, the Court explains that it has
“consistently rejected attempts to suppress campaign
speech based on other legislative objectives.” Id. at
207. McCutcheon resolved that “[a]ny regulation must
instead target what we have called ‘quid pro quo’
The Supreme Court has given no indication that the First
Amendment interest in protecting political access waxes or
wanes depending on the representative relationship between
contributor and candidate. See Buckley, 424 U.S. at 48-49. In fact,
Buckley’s language arguably compels the opposite conclusion:
10

[T]he concept that government may restrict the speech
of some elements of our society in order to enhance the
relative voice of others is wholly foreign to the First
Amendment, which was designed to secure the widest
possible dissemination of information from diverse and
antagonistic sources, and to assure unfettered
interchange of ideas for the bringing about of political
and social changes desired by the people.
Id. (internal quotation marks omitted). Far from serving the goal
of “secur[ing] the widest possible dissemination of information
from diverse and antagonistic sources,” the nonresident limit
artificially suppresses the free exchange of political ideas.

App-28
corruption or its appearance.” Id. at 192 (emphasis
added) (citing Citizens United, 558 U.S. at 359).
Indeed, “[c]ampaign finance restrictions that pursue
other
objectives . . . impermissibly
inject
the
Government ‘into the debate over who should govern.’”
Id. (quoting Ariz. Free Enter. Club’s Freedom Club
PAC v. Bennett, 564 U.S. 721, 750 (2011)); see also
VanNatta v. Keisling, 151 F.3d 1215, 1217 (9th Cir.
1998) (noting “the lack of support for any claim based
on the right to a republican form of government”).
That unqualified directive leaves no room for Alaska’s
averred
self-governance
interest.
Campaign
contribution limits rise or fall on whether they target
quid pro quo corruption or its appearance.
The dissent suggests we are free to accept “selfgovernance” as an important state interest in
justifying limits on campaign contributions because
the Supreme Court has not expressly considered and
rejected that specific interest. Although a prior threejudge opinion of our court does not bind a later panel
on an issue that was not before the prior panel, when
it comes to Supreme Court precedent, our court is
bound by more than just the express holding of a case.
Our decisions must comport with the “reasoning or
theory,” not just the holding, of Supreme Court
decisions (even in the face of prior contrary Ninth
Circuit precedent). Miller v. Gammie, 335 F.3d 889,
893 (9th Cir. 2003) (en banc) (adopting the view that
lower courts are “bound not only by the holdings of
higher courts’ decisions but also by their ‘mode of
analysis’” (quoting Antonin Scalia, The Rule of Law as
a Law of Rules, 56 U. Chi. L. Rev. 1175, 1177 (1989)));
see id. at 900 (“[T]he issues decided by the higher court
need not be identical in order to be controlling.”). The

App-29
dissent’s conclusion that self-governance is an
important state interest in this context is “clearly
irreconcilable” with the Supreme Court’s reasoning in
McCutcheon. See id.
Third, even if McCutcheon did not shutter the
possibility of alternative state interests, selfgovernance is not an important state interest in light
of countervailing First Amendment concerns. Indeed,
Alaska fails to prove that nonresident participation in
a state’s election infringes state sovereignty. Instead,
it alleges in conclusory fashion that the “nonresident
limit also furthers the important state interest in
protecting Alaska’s system of self-government from
outside control.”
Accordingly, we hold that Alaska’s aggregate
nonresident contribution limit violates the First
Amendment, and we reverse the district court’s
judgment on this issue. 11
The dissent relies on Bluman v. FEC, 800 F. Supp. 2d 281
(D.D.C. 2011), but that case is inapplicable. The plaintiffs in
Bluman were foreign citizens who sought the right to participate
in the United States campaign process by, among other things,
making financial contributions to candidates. Id. at 282-83. They
argued they should be treated the same as American citizens
(such as minors and American corporations) who, though unable
to vote, are permitted to make campaign contributions. Id. at 290.
The court rejected that argument and based its holding on the
conclusion that the plaintiffs, in contrast to American citizens
who are unable to vote, were, by definition, outside “the American
political community.” Id. Thus, contrary to the dissent’s
statement that Bluman cannot “be distinguished on the grounds
that it involved a distinction between United States citizens and
foreign nationals,” Dissent at 39, that distinction was the very
basis for the Bluman court’s holding.
11

App-30
CONCLUSION
States have an important interest in preserving
the integrity of their political institutions. A vital
method of doing so is by curbing large monetary
contributions, which can corrode the public’s faith in
its government’s responsiveness to the popular will.
Thus, while campaign contributions implicate a
contributor’s First Amendment right to express a
particular political viewpoint, the State has an
important interest in combating quid pro quo
corruption or its appearance.
Under existing precedent, the district court
correctly held that three of the four challenged
provisions of Alaska’s 2006 campaign finance law are
closely drawn to serve this interest. But the court
erred in upholding the nonresident aggregate
contribution limit because it, at most, targets
contributors’ influence over Alaska politics. Since
Citizens United and McCutcheon, preventing “undue
influence” is no longer a legitimate basis for restricting
contributions
under
the
First
Amendment.
Accordingly, we reverse the district court on that
provision and remand for entry of judgment consistent
with this opinion.
AFFIRMED in part, REVERSED in part, and
REMANDED.
The parties shall bear their own costs.

App-31
THOMAS, Chief Judge, concurring in part and
dissenting in part:
I agree with the majority that Alaska’s limitations
on individual contributions to candidates and electionrelated groups and on political party contributions to
individual candidates do not violate the First
Amendment. However, I would hold that the
nonresident aggregate contribution limit, which
furthers Alaska’s important state interests in
preventing quid pro quo corruption or its appearance
and in preserving self-governance, also does not
violate the First Amendment. Thus, I respectfully
dissent from Section III(B)(iv) of the majority opinion.
I would affirm the district court’s well-reasoned
decision in its entirety.
I
To survive First Amendment scrutiny in this case,
Alaska must establish that the limits are justified by
the risk of quid pro quo corruption or its appearance.
And its burden is light. 1 Alaska need only show that
“the risk of actual or perceived quid pro quo
corruption” by out-of-state actors is neither “illusory”
nor “mere conjecture.” Lair v. Motl, 873 F.3d 1170,
1188 (9th Cir. 2017) (“Lair III”) (quoting Eddleman,
343 F.3d at 1092). After a seven-day bench trial, the
district court concluded that Alaska had satisfied its
burden. Its factual findings were not clearly
1 Because Thompson raised no challenge to the amount of the
aggregate limit, the only question is whether “there is adequate
evidence that the limitation furthers” Alaska’s anti-corruption
interest. Lair v. Bullock, 798 F.3d 736, 742 (9th Cir. 2015) (“Lair
II”) (quoting Mont. Right to Life Ass’n v. Eddleman, 343 F.3d
1085, 1092 (9th Cir. 2003)).

App-32
erroneous, see Prete v. Bradbury, 438 F.3d 949, 960
(9th Cir. 2006) (describing standard), and its
conclusions were amply supported by the record.
Alaska demonstrated that nonresident contributions
present a particular risk of quid pro quo corruption or
its appearance. 2
Alaska is uniquely vulnerable to exploitation by
out-of-state actors. The district court found that this is
so, in part, because of “Alaska’s almost complete
reliance on one industry for a majority of its revenues.”
Thompson v. Dauphinais, 217 F. Supp. 3d 1023, 1029
(D. Alaska 2016). Indeed, while 85 to 92% of Alaska’s
budget derives from the oil and gas industry, that
industry is not responsible for more than 50% of any
other state’s budget. Id. As one pro-oil and gas
organization proclaims on its website, “Alaska is the
only state in the Union that is so dependent on one
industry to fund its government services.” ALASKA OIL
&
GAS
ASS’N,
State
Revenue,
https://www.aoga.org/facts-and-figures/state-revenue
(last visited Nov. 9, 2018). Today, not only does the
State depend on the industry to fund its services, but
The Supreme Court has specifically rejected Thompson’s
argument that a ban is treated differently than a limit when it
comes to connecting the regulation to the state’s important
interest. Fed. Elections Comm’n v. Beaumont, 539 U.S. 146, 162
(2003) (“It is not that the difference between a ban and a limit is
to be ignored; it is just that the time to consider it is when
applying scrutiny at the level selected[.]”). And there is no
question that Alaska may limit campaign contributions to
prevent quid pro quo corruption or its appearance. Nixon v.
Shrink Mo. Gov’t PAC, 528 U.S. 377, 390 (9th Cir. 2000). Thus,
the issue here is essentially whether the state may draw a line
between residents and non-residents.
2

App-33
boom-and-bust cycles have a more immediate impact
on Alaskans’ daily lives, too: “the petroleum industry
supports one-third of all Alaska jobs.” ALASKA OIL &
GAS
ASS’N,
Facts
and
Figures,
https://www.aoga.org/facts-and-figures (last visited
Nov. 9, 2018).
The economic benefits of natural resource
extraction do not come without a cost. The interests of
out-of-state oil companies are often at odds with the
interests of some Alaska residents. Today, “[a]bout 17
percent of Alaskans—or 120,000 people—live in rural
areas, where 95 percent of households use fish and 86
percent use game for subsistence purposes[.]” Azmat
Khan, Living off the Land in Rural Alaska, PBS,
https://www.pbs.org/wgbh/frontline/article/ living-offthe-land-in-rural-alaska (last visited Nov. 9, 2018).
Resource extraction has the potential to cause
irremediable damage to Alaskan lands and culture:
“any change that depletes wild resources, reduces
access to wild areas and resources, or increases
competition between user groups can create problems
for subsistence[,]” which is “among the most highly
valued parts of [Alaska] culture” and “essential . . . to
rural economies.” Alaska Dep’t of Fish & Game,
Subsistence
in
Alaska:
FAQs,
http://www.adfg.alaska.gov/index.cfm?adfg=subsisten
ce.faqs#QA14 (last visited Nov 9, 2018).
Given the oil and gas industry’s outsized impact
on Alaska’s economy, it is not difficult to see why, as
the district court found, Alaska is dependent upon and
therefore particularly vulnerable to corruption by outof-state corporations, whose interests are likely to be
indifferent to those of Alaska’s residents. Alaska is

App-34
vulnerable for another reason, too—with “the second
smallest legislature in the United States and the
smallest senate,” it takes only “ten votes [to] stop a
legislative action such as an oil or gas tax increase
from becoming law.” Dauphinais, 217 F. Supp. 3d at
1029. “Consequently, the incentive to buy a vote, and
the chances of successfully doing so, are therefore
higher in Alaska than in states with larger legislative
bodies.” Id. The district court was persuaded by trial
testimony that “the unique combination of Alaska’s
small population, geographic isolation, and great
natural resources make it extremely dependent on
outside industry and interests.” Id. at 1039. Alaska
cannot afford to extract its natural resources without
out-of-state corporations. Id. And because out-of-state
corporations cannot extract without the cooperation of
government, these corporations do all they can to
influence state politics. Id.
As the Supreme Court has recognized, “the
dangers of large, corrupt contributions and the
suspicion that large contributions are corrupt are
neither novel nor implausible.” Shrink Mo., 528 U.S.
at 391 (citing Buckley v. Valeo, 424 U.S. 1, 27 (1976)).
Thus, it is enough to demonstrate that out-of-state
contributors are particularly interested in corrupting
the political process in Alaska, as the State has easily
done.
But the proof at trial was more than theoretical.
The district court found that “natural resource
extraction firms can and do exert pressure on their
employees” to contribute to political campaigns in
Alaska. Dauphinais, 217 F. Supp. 3d at 1039. In other
words, these out-of-state interests have found a way to

App-35
circumvent the generally applicable contribution
limits.
And, as the trial evidence demonstrated, Alaska’s
history of corruption is, in fact, storied. As the
majority has aptly noted, in the mid-2000s, a highly
publicized scandal implicated ten percent of Alaska’s
legislators for improperly taking money from VECO, a
corporation that provided support services to out-ofstate oil and gas corporations. Id. at 1030.
Unsurprisingly, the VECO scandal did not go
unnoticed by the public. News outlets played an FBI
surveillance video showing one member of the
legislature, Representative Vic Kohring, accepting
cash from VECO in exchange for his vote on pending
oil tax legislation. Representative Kohring went on to
pen a newspaper column claiming that the only thing
separating him from other Alaska lawmakers was
that he got caught. Id. at 1030. As the district court
determined, the publicity surrounding the VECO
scandal supports Alaska’s interest in limiting the
appearance of quid pro quo corruption by out-of-state
interests in order to preserve Alaskans’ belief in the
integrity of their political system. Id. at 1031.
In sum, I would hold that Alaska’s important anticorruption interest justifies a limit on nonresident
speech. Nonresident contributions present a special
risk of quid pro quo corruption that is neither
“illusory” nor “mere conjecture.” Lair III, 873 F.3d at
1188 (quoting Eddleman, 343 F.3d at 1092).
Particularly in the aftermath of the VECO scandal,
the nonresident aggregate contribution furthers
Alaska’s interest in preventing the appearance of
corruption, thereby increasing “[c]onfidence in the

App-36
integrity of [Alaska’s] electoral processes,” a value
“essential to the functioning of our participatory
democracy.” Purcell v. Gonzalez, 549 U.S. 1, 7 (2006)
(per curiam). The district court was entirely correct,
and the record supports its conclusion.
II
The nonresident aggregate cap is also justified by
a second important state interest: self-governance. I
would hold that self-governance is a sufficiently
important interest to justify the nonresident
aggregate cap.
A
“[T]he right to govern is reserved to citizens.”
Foley v. Connelie, 435 U.S. 291, 297 (1978). There is
no question that Alaska may bar nonresidents from
voting, no matter how tangible their interest in a state
election, Holt Civic Club v. City of Tuscaloosa, 439
U.S. 60, 68-69 (1978), even though “[n]o right is more
precious” than the right to vote, Wesberry v. Sanders,
376 U.S. 1, 17 (1964). Because of the need for
responsiveness to local interests, states may also
closely guard from nonresident interference those
“functions that go to the heart of representative
government,” such as “state elective or important
nonelective executive, legislative, and judicial
positions[.]” Sugarman v. Dougall, 413 U.S. 634, 647
(1973).
States should be able to prevent out-of-state
interests from advancing candidates for whom the
contributor cannot even vote. Campaign contributions
are made primarily to directly influence the outcome
of an election rather than to broadcast one’s one
political opinion. Beaumont, 539 U.S. at 161

App-37
(“[C]ontributions lie closer to the edges than to the
core of political expression.”). Thus, they are “subject
to relatively complaisant review.” Id.
The nonresident aggregate limit furthers Alaska’s
important state interest in protecting state
sovereignty in governance. It is “the choice, and right,
of the people to be governed by their citizen peers.”
Foley, 435 U.S. at 296. When out-of-state interests
fund political campaigns, they place an obstacle
between the people and their representatives. Alaska
must be able to take measures to ensure that its
legislators are responsive to the individuals that they
represent, not to out-of-state interests.
Alaska’s interest in protecting self-government is
“important,” as required under Eddleman’s first
prong. Lair II, 798 F.3d at 742 (quoting Eddleman,
343 F.3d at 1092). Indeed, on en banc review, we held
that a state’s interest in “securing the people’s right to
self-government” was “compelling” in the face of a
First Amendment challenge to a law requiring
municipal initiative proponents to be bonafide
electors. Chula Vista Citizens for Jobs & Fair
Competition v. Norris, 782 F.3d 520, 531 (9th Cir.
2015) (en banc). The Supreme Court reached a similar
conclusion regarding residence requirements under
an Equal Protection analysis. Dunn v. Blumstein, 405
U.S. 330, 343-44 (1972) (recognizing as “substantial”
the government’s interest in “preserv[ing] the basic
conception of a political community”).
B
Bluman v. Federal Election Commission, 800 F.
Supp. 2d 281 (D.D.C. 2011), summarily aff’d, 132 S.
Ct. 1087 (2012) (mem.), decided by a three-judge panel

App-38
of the D.C. District Court, is analogous. There, the
court considered a federal law preventing foreign
nationals from making not only contributions but also
independent expenditures to influence federal
elections. Id. at 283. Because spending money to
influence an election is not only “speech” but also
“participation in democratic self-government,” foreign
nationals may be subject to restrictions targeted at
protecting sovereignty. Id. at 289.
In Bluman, the court recognized that “[p]olitical
contributions and express-advocacy expenditures are
an integral aspect of the process by which Americans
elect officials to federal, state, and local government
offices.” Id. at 288. “[I]t is undisputed that the
government may bar foreign citizens from voting and
serving as elected officers”; “[i]t follows that the
government may bar foreign citizens . . . from
participating in the campaign process that seeks to
influence how voters will cast their ballots in the
elections.” Id.
Alaska presents an even stronger case than did
the federal government in Bluman. There, the
challenged law restricted individual expenditures as
well as campaign contributions, and the court
therefore applied strict scrutiny. Id. at 285 (citing
McConnell v. FEC, 540 U.S. 93, 134-37 (2003) and
Buckley, 424 U.S. at 20-23). Here, on the other hand,
we need not identify a compelling government interest
but only a “sufficiently important” one. Lair II, 798
F.3d at 742 (quoting Eddleman, 343 F.3d at 1092).
Nor can Bluman be distinguished on the grounds
that it involved a distinction between United States
citizens and foreign nationals. “It has long been

App-39
recognized that resident aliens enjoy the protections
of the First Amendment.” Price v. I.N.S., 962 F.2d 836,
841 (9th Cir. 1991) (internal citations omitted). The
line drawn in Bluman separates citizens with the
right to participate in government from foreign
nationals subject to federal law but with no corollary
right of participation. Alaska draws its line even more
carefully by applying the aggregate contribution limit
only to nonresidents. 3
C
I respectfully disagree that the Supreme Court
has foreclosed this issue because it rejected other
purported interests. Op. at 29-30. Foundational to the
judicial role is a recognition that “[w]ithout
jurisdiction the court cannot proceed at all in any
cause.” Steel Co. v. Citizens for Better Env’t, 523 U.S.
83, 94 (1998) (quoting Ex parte McCardle, 74 U.S. 506,
514 (7 Wall.) (1868)). Jurisdiction extends only to
“Cases” and “Controversies.” U.S. Const. art. III, § 2.
It emphatically does not extend to issues that are not
before a court. No court can reject a self-governance
This, too, is why VanNatta v. Keisling, 151 F.3d 1215 (9th Cir.
1998), is immediately distinguishable, even if it remains good law
and speaks to this precise issue, both of which propositions are
questionable. VanNatta is distinguishable because it limited outof-district contributions to candidates for state office. Id. at 1217.
Further, as we noted in Eddleman, reliance on the Court’s
approach in VanNatta “fails to recognize the impact of the
Supreme Court’s . . . decision in Shrink Missouri.” 343 F.3d at
1091 n.2. And the majority opinion in VanNatta is framed as a
rejection of the state’s evidence and legal argument rather than
as setting forth a hard-and-fast rule regarding the
constitutionality of all limits on out-of-district contributions. 151
F.3d at 1217-18.
3

App-40
theory unless it is asked to do so. The Supreme Court
has yet to take up this question; in resolving this
controversy, it is not our role to apply a holding that
does not exist.
D
“The Constitution limited but did not abolish the
sovereign powers of the States, which retained ‘a
residuary and inviolable sovereignty.’” Murphy v.
Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1461, 1475
(2018) (quoting The Federalist No. 39, at 245 (James
Madison) (Clinton Rossiter ed., 1961)). This basic
principle arises from “a fundamental structural
decision incorporated into the Constitution.” Id.
Our federalist system is not binary; it does not
simply pit the states—as a single entity—against
federal power. Rather, it recognizes the sovereignty of
each individual state. In the words of Justice
Marshall, “[n]o political dreamer was ever wild
enough to think of breaking down the lines which
separate the States, and of compounding the
American people into one common mass.” McCulloch
v. Maryland, 17 U.S. 316, 403 (4 Wheat.) (1819).
Under our Constitution, “the people of each state
compose a State, having its own government, and
endowed with all the functions essential to separate
and independent existence.” Lane Cty. v. Oregon, 74
U.S. 71, 76 (7 Wall.) (1868). “Not only, therefore, can
there be no loss of separate and independent
autonomy to the States, through their union under the
Constitution, but . . . the preservation of the States,
and the maintenance of their governments, are as
much within the design and care of the Constitution
as the preservation of the Union and the maintenance

App-41
of the National government.” Texas v. White, 74 U.S.
700, 725 (7 Wall.) (1869).
In the current, highly partisan political climate,
regional differences may be obscured by contentious
national issues. Jessica Bulman-Pozen, Executive
Federalism Comes to America, 102 VA. L. REV. 953,
962-63 (2016). However, “[e]ven at the level of national
politics, . . . there always remains a meaningful
distinction between someone who is a citizen of the
United States and of Georgia and someone who is a
citizen of the United States and of Massachusetts.”
U.S. Term Limits, Inc. v. Thornton, 514 U.S. 779, 859
(1995) (Thomas, J., dissenting).
Here, of course, we are not dealing with politics at
a national level, but only with Alaska’s ability to take
measures to “represent and remain accountable to its
own citizens.” Printz v. United States, 521 U.S. 898,
920 (1997) (internal citations omitted). State
governments can and should be “more sensitive to the
diverse needs” of their populations. Gregory v.
Ashcroft, 501 U.S. 452, 458 (1991). Alaska must have
the right to prevent non-resident interests from taking
hold of their elections. See Anthony Johnstone,
Outside Influence, 13 ELECTION L.J. 117, 122-23(2014)
(“No form of federalism, and therefore no form of
government under the Constitution, works without
limits on outside influence in the states.”). Therefore,
I disagree that Alaska’s self-governance interest is not
“sufficiently important” for purposes of limiting
campaign contributions. Lair II, 798 F.3d at 742
(quoting Eddleman, 343 F.3d at 1092).

App-42
III
For these reasons, I respectfully dissent, in part. I
agree that Alaska’s limitations on individual
contributions to candidates and election-related
groups and on political party contributions to
individual candidates do not violate the First
Amendment. However, I also would hold that Alaska’s
nonresident
aggregate
contribution
limit
is
constitutional. Alaska has shown that the risk of quid
pro quo corruption or its appearance by out-of-state
campaign contributions is neither “illusory” nor “mere
conjecture.” Lair III, 873 F.3d at 1188 (quoting
Eddleman, 343 F.3d at 1092). Further, it has
demonstrated its important interest in selfgovernance, which justifies the nonresident aggregate
limit. Thus, I would affirm the judgment of the district
court in its entirety.

App-43
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 17-35019
________________
DAVID THOMPSON, AARON DOWNING; JIM CRAWFORD,
DISTRICT 18 OF THE ALASKA REPUBLICAN PARTY,
v.

PlaintiffsAppellants,

HEATHER HEBDON, in Her Official Capacity as the
Executive Director of the Alaska Public Offices
Commission; TOM TEMPLE; IRENE CATALONE; RON
KING; ROBERT CLIFT; ADAM SCHWEMLEY, in Their
Official Capacities as Members of the Alaska Public
Offices Commission,
DefendantsAppellees.
________________
Filed: February 20, 2019
________________
Before: THOMAS, Chief Judge, and CALLAHAN and
BEA, Circuit Judges
________________
ORDER
________________
A judge made a sua sponte request for a vote on
whether to rehear this case en banc. After reviewing
the supplemental briefing submitted by the parties,

App-44
the request has been withdrawn. The mandate shall
issue forthwith.

App-45
Appendix C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ALASKA
________________
No. 3:15-cv-00218-TMB
________________
DAVID THOMPSON, AARON DOWNING; JIM CRAWFORD,
DISTRICT 18 OF THE ALASKA REPUBLICAN PARTY,
v.

Plaintiffs,

PAUL DAUPHINAIS, in His Official Capacity as the
Executive Director of the Alaska Public Offices
Commission; MARK FISH, IRENE CATALONE, RON KING,
KENNETH KIRK, and VANCE SANDERS, in Their Official
Capacities as Members of the Alaska Public Offices
Commission,
Defendants.
________________
Filed: November 7, 2016
________________
MEMORANDUM OF DECISION
________________
I.

INTRODUCTION

Plaintiffs David Thompson, Aaron Downing, Jim
Crawford, and District 18 of the Alaska Republican
Party (“District 18”) bring this lawsuit against
Defendants Paul Dauphinais, Mark Fish, Irene
Catalone, Ron King, Kenneth Kirk, and Vance
Sanders (collectively, “Defendants” or “the State”) to
challenge the constitutionality of four provisions of

App-46
Alaska’s campaign finance laws under the First and
Fourteenth Amendments. 1 The Court called this
matter for bench trial on April 25, 2016. The parties
concluded their arguments and presentations of
evidence on May 3, 2016, 2 and subsequently submitted
post-trial briefs. 3 Having carefully considered the
pleadings, exhibits, trial testimony, arguments of
counsel, and the applicable law, the Court makes the
following findings of fact and conclusions of law. 4
II. BACKGROUND
In 1996, the Alaska Legislature enacted Chapter
48 SLA 1996 for the purpose of “substantially
revis[ing] Alaska’s campaign finance laws in order to
restore the public’s trust in the electoral process and
to foster good government.” Chapter 48 SLA 1996 was
based on a ballot initiative drafted by Michael Frank
and certified by Lieutenant Governor Fran Ulmer, and
established, among other things, $500 annual limits
on the amount an individual could contribute to a
candidate for state office or to a group that was not a
political party, as well as aggregate limits on the
dollar amount a candidate could accept from political
parties or individuals who were not residents of
Alaska. None of the contribution limits were indexed

1

Dkt. 1 (Compl.); Dkt. 46 (First Am. Compl.).

2

Dkt. 125.

Dkt. 129 (re-filed at Dkt. 139 with working hyperlinks); Dkt.
131; Dkt. 140; Dkt. 143. The parties have also submitted notices
of supplemental authorities, in accordance with D.Ak. L.R.
7.1(i)(1)[B]. See Dkt. 145; Dkt. 147.
3

4

See Fed. R. Civ. P. 52(a).

App-47
for inflation. Chapter 48 SLA 1996 became effective
January 1, 1997.
In 2003, the Alaska Legislature modified Alaska’s
campaign finance laws by enacting Chapter 108 SLA
2003. Chapter 108 SLA 2003 relaxed some of the
campaign contribution limits set by Chapter 48 SLA
1996, including by raising the amount an individual
could contribute to a political candidate or group that
was not a political party from $500 to $1,000,
annually. Chapter 108 SLA 2003 became effective
September 14, 2003.
Three years later, 73 percent of Alaska voters
voted in favor of Ballot Measure 1, which proposed
revising Alaska’s campaign finance laws to lower the
amount an individual could contribute to a political
candidate or group that was not a political party back
to $500 per year. The $500 base limits became
effective December 17, 2006.
Plaintiffs in this case are individuals and a
subdivision of a political party who contributed or
attempted to contribute the maximum dollar amount
permitted under Alaska’s current campaign finance
laws, as established by the above session laws and
initiatives. Downing is an Alaska resident who, in
2015, contributed $500 to the campaign of mayoral
candidate Larry DeVilbiss and to the campaign of
state house candidate George Rauscher, the maximum
contribution amounts permitted under Alaska Stat.
15.13.070(b). Crawford is an Alaska resident who, in
2015, contributed $500 to the campaign of mayoral
candidate Amy Demboski and to the Alaska Miners’
Association Political Action Committee, the maximum
contribution amounts permitted under Alaska Stat.

App-48
15.13.070(b). Thompson is a Wisconsin resident and
brother-in-law to Alaska State Representative Wes
Keller who, in 2015, attempted to make a $500
contribution to Keller’s campaign, but was unable to
do so because the campaign had already received the
maximum dollar amount it could accept from
nonresidents under Alaska Stat. 15.13.072(e)(3). And
District 18 is a subdivision of the Alaska Republican
Party that was limited to a $250 contribution to Amy
Demboski’s mayoral campaign, the maximum amount
that it was permitted to contribute under the
aggregate limit on the dollar amount a campaign can
accept from a political party set forth in Alaska Stat.
15.13.070(d)(4).
By this suit, Plaintiffs challenge four distinct
parts of Alaska’s campaign finance laws under the
First and Fourteenth Amendments. Each challenged
provision is discussed individually below. In relief,
Plaintiffs seek a declaratory judgment that each of the
challenged provisions are unconstitutional, a
permanent injunction prohibiting the State from
enforcing the challenged provisions, and full
reasonable costs and attorney’s fees under 42 U.S.C.
§ 1983.
The Court has jurisdiction over this case pursuant
to 28 U.S.C. §§ 1331 and 1343. This civil action arises
under the First and Fourteenth Amendments of the
United States Constitution and 42 U.S.C. § 1983.
III. ANALYSIS
It is well established that the First Amendment
protects political association as well as political

App-49
expression. 5 It is equally well established that laws
which limit the amount of money a person may give to
a candidate or campaign organization intrude upon
both of those First Amendment interests, 6 as a
contribution serves both “as a general expression of
support for the candidate and his views” and “to
affiliate a person with a candidate.” 7 But because
“contributions lie closer to the edges than to the core
of political expression,” 8 laws which regulate political
contributions, as opposed to political expenditures, are
subject to “a lesser but still ‘rigorous standard of
review.’” 9 Under that standard of review, “state
contribution limits will be upheld if (1) there is
adequate evidence that the limitation furthers a
sufficiently important state interest, and (2) if the
Buckley v. Valeo, 424 U.S. 1, 15 (1976) (per curiam); accord
McCutcheon v. FEC, 134 S. Ct. 1434, 1441 (2014); see also Mills
v. Alabama, 384 U.S. 214, 218 (1966) (“[T]here is practically
universal agreement that a major purpose of [the First]
Amendment was to protect the free discussion of governmental
affairs.”).
5

Buckley, 424 U.S. at 23; Lair v. Bullock, 798 F.3d 736, 741-42
(9th Cir. 2015).
6

7

Buckley, 424 U.S. at 20-21.

FEC v. Beaumont, 539 U.S. 146, 161 (2003); see also Buckley,
424 U.S. at 20 (“A limitation upon the amount that any one
person or group may contribute to a candidate or political
committee entails only a marginal restriction upon the
contributor’s ability to engage in free communication.”).
8

9 McCutcheon, 134 S.Ct. at 1444 (quoting Buckley, 424 U.S. at
29); accord Thalheimer v. City of San Diego, 645 F.3d 1109, 1125
(9th Cir. 2011) (“While expenditures and contributions are
different modes of political speech, it is the distinct nature of
contributions that lessens the First Amendment rights of donors,
and strengthens the government’s regulatory power.”).

App-50
limits are ‘closely drawn.’” 10 The State bears the
burden of establishing both prongs of the
constitutional inquiry. 11
After Citizens United, what constitutes a
sufficiently important state interest to support limits
on campaign contributions has narrowed. Now, the
prevention of quid pro quo corruption, or its
appearance, is the only state interest that can support
limits on campaign contributions. 12 “That Latin
phrase captures the notion of a direct exchange of an
official act for money,” 13 or “‘dollars for political
favors.’” 14 Campaign finance laws that pursue other
objectives, such as reducing the amount of money in
politics, restricting the political participation of some
in order to enhance the relative influence of others, or
targeting the general gratitude a candidate may feel
toward those who support him or his allies,
“impermissibly injects the Government ‘into the
Lair, 798 F.3d at 742 (quoting Montana Right to Life Ass’n v.
Eddleman, 343 F.3d 1085, 1092 (9th Cir. 2003), abrogated on
other grounds by Citizens United v. FEC, 558 U.S. 310 (2010)).
10

McCutcheon v. FEC, 134 S. Ct. 1434, 1452 (2014) (quoting
United States v. Playboy Entm’t Grp., Inc., 529 U.S. 803, 816
(2000)).
11

558 U.S. at 359; see also McCutcheon, 134 S. Ct. at 1441; Lair,
798 F.3d at 746-47 n.7 (“But to the extent Citizens United left
that question open, McCutcheon confirmed that quid pro quo
corruption of its appearance are the only interests that can
support contribution restrictions.”).
12

McCutcheon, 134 S. Ct. at 1441 (citing Citizens United, 558
U.S. at 359).
13

14 Id. (quoting FEC v. Nat’l Conservative Political Action
Comm., 470 U.S. 480, 497 (1985)).

App-51
debate over who should govern’” and thus cannot
survive constitutional scrutiny. 15
a.

Counts One and Two: Individual-toCandidate
and
Individual-to-Group
Base Limits

Plaintiffs first challenge the provisions of Alaska’s
campaign finance laws that prohibit an individual
from contributing more than $500 per year to a
candidate for political office and to a group that is not
a political party. 16 They argue that the $500
individual-to-candidate and individual-to-group base
limits set forth in Alaska Stat. 15.13.070(b) are not
closely drawn to further the sufficiently important
state interest of combating quid pro quo corruption or
its appearance.
i.

Sufficiently important state interest

As part of that argument, Plaintiffs contend that
Defendants did not present adequate evidence at trial
to establish that Alaska’s $500 base limits further the
sufficiently important state interest of combating quid
pro quo corruption or its appearance. The Court
disagrees.
At trial, the State put forward evidence that the
risk of quid pro quo corruption or its appearance in
McCutcheon, 134 S. Ct. at 1441 (quoting Arizona Free Enter.
Club’s Freedom Club PAC v. Bennett, 131 S. Ct. 2806, 2826
(2011)); see also Thalheimer, 645 F.3d at 1119 (recognizing that
Citizens United “narrowed the scope of the anti-corruption
rationale to cover quid pro quo corruption only, as opposed to
money spent to obtain influence over or access to elected officials”
(quoting another source)).
15

16

Alaska Stat. 15.13.070(b)(1).

App-52
Alaska politics and government is both actual and
considerable. To start, Dr. Gerald McBeath, a
Professor Emeritus of Political Science at the
University of Alaska Fairbanks who was qualified as
an expert in this case on the topic of Alaska state and
local politics and government, identified several
factors that make Alaska highly, if not uniquely,
vulnerable to corruption in politics and government.
The first of these factors is legislative size. Alaska has
the second smallest legislature in the United States
and the smallest senate, with only twenty senators. As
Dr. McBeath explained at trial, that means that just
ten votes can stop a legislative action such as an oil or
gas tax increase from becoming law. Consequently,
the incentive to buy a vote, and the chances of
successfully doing so, are therefore higher in Alaska
than in states with larger legislative bodies. A second
factor is Alaska’s almost complete reliance on one
industry for a majority of its revenues. The percentage
of Alaska’s budget generated by royalties, taxes, and
revenues from oil and gas is the highest among all of
the oil and gas producing states in the United States.
In fact, it is exponentially greater: typically 85 to 92
percent in Alaska compared to less than 50 percent for
every other state. Another factor making Alaska
susceptible to corruption in politics and government is
its small population coupled with its vast size.
According to Dr. McBeath, these characteristics make
enforcement of campaign finance laws much more
challenging, as it limits both the number and abilities
of watchdog organizations.
In addition to Dr. McBeath’s testimony, the public
officials who appeared at trial, regardless of whether
they were called by Plaintiffs or the State, uniformly

App-53
testified that they experienced and observed pressure
to vote in a particular way or support a certain cause
in exchange for past or future campaign contributions
while in office. Defense witness David Finkelstein, a
former Alaska state representative who served from
1989 to 1996 testified that “there was an inordinate
influence from contributions on the actions of the
legislature,” and that legislators would often mention
which interest groups had contributed large amounts
to their campaigns or to their party during closed-door
caucus meetings over whether particular bills would
move forward. He further testified that “it inevitably
would affect [his] vote if [he’d] received a thousand
dollars or stacks of thousand dollar[] checks, from one
side and not the other.” Defense witness Charles
Wohlforth, who served two terms as a member of the
Anchorage Assembly from 1993 to 1999, similarly
testified that “the system was rigged by money[ed]
interests and that too frequently the decisions of the
assembly were controlled by those interests and their
desires, based on the kind of contributions they would
make.” And Eric Croft, who is currently a member of
the Anchorage Assembly and who previously served in
the state legislature for ten years, testified at trial
that although he has never been directly asked for a
political favor in exchange for a contribution, he has
experienced situations where “it [was] clear that if you
don’t vote the way somebody wants, you’re not going
to get their continued contribution.”
Witnesses for the Plaintiffs also provided evidence
that some large contributors expect political favors in

App-54
exchange for their contribution. 17 Senator John
Coghill testified that on one occasion during the
legislative session, he was approached in the hallway
of the State Capitol by a lobbyist demanding that
Senator Coghill vote a certain way, saying “This is
why we gave to you. Now we need your help.” Senator
Coghill refused, and those represented by that
lobbyist never made a contribution to Senator Coghill
again. Bob Bell testified that during his tenure on the
Anchorage Assembly in the 1990s, an oil executive
offered to hold a fundraiser for him if he would
publicly support a private prison project in South
Anchorage. When Bell refused to support the project,
the oil executive held a fundraiser for his opponent
instead.
Beyond this testimony, the State presented
evidence about the widely publicized VECO public
corruption scandal, in which approximately ten
percent of the Alaska Legislature, including state
representatives Vic Kohring, Pete Kott, and Beverly
Masek, were directly implicated for accepting money
from Bill Allen and VECO, Allen’s oilfield services
firm, in exchange for votes and other political favors. 18
A surveillance video from the VECO investigation
introduced at trial showed Kohring in a Juneau hotel
See McCutcheon, 134 S. Ct. at 1450 (“Spending large sums of
money in connection with elections, but not in connection with an
effort to control the exercise of an officeholder’s official duties,
does not give rise to such quid pro quo corruption.”).
17

18 Kohring, Kott, and Masek were all part of a larger group of
Alaska legislators who referred to themselves as the “Corrupt
Bastards Club” after a patron at a Juneau bar called some of the
legislators who received large VECO contributions “corrupt
bastards.”

App-55
room asking Allen and Rick Smith, another VECO
official, for help with his (Kohring’s) $17,000 debt. In
the video, Kohring accepts a relatively small cash
payment from them in response to his request, and
then, in the same exchange, asks Allen and Smith
what he can do for them on oil tax legislation that was
then pending before the Alaska Legislature. After
being criminally charged, Kohring wrote a newspaper
column in which he stated that other legislators were
no better than he was and were unfairly critical of him
because he got caught.
The State also introduced at trial a Government
Ethics Center study commissioned by the Alaska
State Senate in 1990 in which the Government Ethics
Center surveyed Alaska legislators, public officials,
and lobbyists as to the image of and the public trust in
the Alaska Legislature. The study concluded that
“that things are not what they should be” and that
“[t]he reputation and image of the legislature is
unacceptably low.” Of particular relevance to this
case, the survey results showed that 24 percent of
lobbyists surveyed believed that “about half” or more
of Alaska’s legislators could “be influenced to take or
withhold some significant legislative action . . . by
campaign contributions or other financial benefits
provided by lobbyists and their employers,” and that
40 percent of legislators surveyed believe that very few
members of the public had a sufficiently high degree
of trust and confidence in legislators’ integrity. 19

19 See Buckley, 424 U.S. at 27 (“Of almost equal concern as the
danger of actual quid pro quo arrangements is the impact of the
appearance of corruption stemming from public awareness of the

App-56
Taking all of the testimony and other evidence
together, the Court finds that Defendants have made
an adequate showing that the risk of quid pro quo
corruption or its appearance in Alaska politics and
government from large campaign contributions is
pervasive and persistent. 20 Quid pro quo corruption, or
even its appearance, undermines public trust in the
electoral process and government. Having concluded
that the $500 base limits set forth in 15.13.070(b)
further Alaska’s sufficiently important interest in
preventing quid pro quo corruption or its appearance,
the Court turns to the question of whether those $500
limits are “closely drawn” to further that interest.
ii. Closely drawn
In determining the constitutionality of Alaska’s
$500 base limits, Plaintiffs contend that the Court
should apply the two-part, multi-factor “closely
drawn” test articulated by the Supreme Court in
Randall v. Sorrell 21 rather than the test laid out by the

opportunities inherent in a regime of large individual financial
contributions.”).
See Nixon v. Shrink Missouri Gov’t PAC, 528 U.S. 377, 395
(2000) (“[T]here is little reason to doubt that sometimes large
contributions will work actual corruption of our political system,
and no reason to question the existence of a corresponding
suspicion among voters.”); see also Zimmerman v. City of Austin,
Findings of Fact and Conclusions of Law, No. 1:15-CV-628-LY
(W.D. Tex. July 20, 2016) (finding base limit furthered the City
of Austin’s interest in preventing quid pro quo corruption or its
appearance where the City of Austin presented evidence that
there was a “widespread” perception that economic interests had
“inordinate influence” over the Austin City Council).
20

21

548 U.S. 230 (2006) (plurality opinion).

App-57
Ninth Circuit Court of Appeals in Eddleman. 22
Plaintiffs’ position, however, is foreclosed by the Ninth
Circuit’s opinion in Lair. 23 In Lair, the Ninth Circuit
considered whether and to what extent Randall
abrogated Eddleman’s “closely drawn” analysis. 24
Applying Miller v. Gammie, 25 it found that “there
simply was no binding Randall decision on that
point,” 26 and that the district court’s decision to apply
Randall’s “closely drawn” analysis to the contribution
limits at issue in that case was therefore legal error. 27
The
Court
will
therefore
determine
the
constitutionality of Alaska’s campaign contribution
laws using Eddleman’s “closely drawn” test.
Under Eddleman’s “closely drawn” test, limits on
contributions are “closely drawn” if they “(a) focus
narrowly on the state’s interest, (b) leave the
contributor free to affiliate with a candidate, and (c)
allow the candidate to amass sufficient resources to
wage an effective campaign.” 28 In conducting that
tailoring analysis, a court must be “mindful that the
22

343 F.3d 1085 (9th Cir. 2003).

23

798 F.3d at 747.

Id. at 745-48; see also Lair v. Bullock, 697 F.3d 1200, 120406 (9th Cir. 2012).
24

25

335 F.3d 889 (9th Cir. 2003) (en banc).

Lair, 798 F.3d at 747; accord Lair, 697 F.3d at 1204
(“Randall is not binding authority because there was no opinion
of the Court.”).
26

Lair, 798 F.3d at 748; accord Lair v. Motl, No. CV 12-12-HCCL, 2016 WL 2894861, at *4 (May 17, 2016) (noting Eddleman
“provides the overall analytical framework” for evaluating the
constitutionality of a contribution limit).
27

28

Lair, 798 F.3d at 742 (quoting Eddleman, 343 F.3d at 1092).

App-58
dollar amounts employed to prevent corruption should
be upheld unless they are ‘so radical in effect as to
render political association ineffective, drive the sound
of a candidate’s voice beyond the level of notice, and
render contributions pointless.’” 29
Here, Plaintiffs do not dispute and the Court
agrees with Defendants that the base limits set forth
in Alaska Stat. 15.13.070(b) leave an individual free to
affiliate with a candidate. Plaintiffs do, however,
dispute that Alaska’s $500 base limits focus narrowly
on Alaska’s interest in the prevention of quid pro quo
corruption or its appearance. They further claim that
the State has failed to prove that the $500 base limits
allow candidates, particularly challengers in
competitive races, to amass sufficient resources to run
effective campaigns. The Court addresses each claim
in turn.
1.

Focus narrowly

Citing Frank’s testimony as to why and how he
selected $500 as the individual-tocandidate and
individual-to-group contribution limit amounts for his
ballot initiative back in the 1990s, Plaintiffs contend
that the $500 individual-to-candidate and individualto-group contribution limits were put in place for
impermissible purposes other than preventing quid
pro quo corruption or its appearance, and that the
State therefore cannot show that those limits satisfy
the first part of Eddleman’s “closely drawn” test. But
Plaintiffs’ argument forgets that Ballot Measure 1,
which established the current $500 base limits and
29 Eddleman, 343 F.3d at 1094 (quoting Shrink Missouri, 528
U.S. at 397).

App-59
which was approved by a 73 percent margin of Alaska
voters, explicitly contemplated an anticorruption
purpose. 30 Indeed, the statement in support of the
successful initiative included in the Alaska Division of
Elections voter information packet stated as follows:
Corruption is not limited to one party or
individual. Ethics should be not only
bipartisan but also universal. From the
Abramoff and Jefferson scandals in
Washington D.C. to side deals in Juneau,
special interests are becoming bolder every
day. They used to try to buy elections. Now
they are trying to buy the legislators
themselves.
Plaintiffs also argue that the $500 base limits
impermissibly restrict their free speech and
associational rights because Defendants have not
shown that a higher contribution limit, such as a $750
or $1,000 limit (or even a $500 limit indexed for
inflation), would be ineffective at preventing quid pro
quo corruption or its appearance. That argument,
however, misunderstands both the Court’s role in
assessing and the State’s task in proving the
constitutionality of a contribution limit. In Buckley,
the Supreme Court rejected an overbreadth claim that
the $1,000 contribution limit at issue in that case was
“unrealistically low” because “much more than that
amount would still not be enough to enable an
30 Contra Motl, 2016 WL 2894861, at *7 (holding base limits at
issue in that case “could never be said to focus narrowly on a
constitutionally-permissible anti-corruption interest because
they were expressly enacted to combat the impermissible
interests of reducing influence and leveling the playing field”).

App-60
unscrupulous contributor to exercise improper
influence over a candidate or officeholder.” 31 In
rejecting the claim, the Buckley Court adopted the
Court of Appeals for the District of Columbia’s
observation that “[i]f it is satisfied that some limit on
contributions is necessary, a court has no scalpel to
probe whether, say, a $2,000 ceiling might not serve
as well as $1,000.” 32 The law instead requires “a fit
that is not necessarily perfect, but reasonable; that
represents not necessarily the single best disposition
but one whose scope is in proportion to the interest
served.” 33 In the context of this case, that means that
the State need not prove that $500 is the highest
possible contribution limit that still serves to prevent
quid pro quo corruption or its appearance, but rather
that the challenged $500 contribution limits further
that interest and also permit candidates to “amas[s]
the resources necessary for effective advocacy.” 34
What is more, the State did elicit testimony at
trial indicating that the $500 individual-to-candidate
and individual-to-group limits are, in fact, likely more
effective at furthering the State’s interest in
preventing quid pro quo corruption or its appearance
than a hypothetical $750 or $1,000 limit. Professor
Richard Painter, whom the Court qualified as an
31

424 U.S. at 30.

32 Id. (“Such distinctions in degree become significant only
when they can be said to amount to differences in kind.”); see also
Randall, 548 U.S. at 248 (explaining a court “cannot determine
with any degree of exactitude the precise restriction necessary to
carry out the statute’s legitimate objectives”).
33

McCutcheon, 134 S. Ct. at 1456.

34

Buckley, 424 U.S. at 21.

App-61
expert in government ethics and institutional
corruption with an emphasis on campaign finance
reform, explained that lower contribution limits are
often more effective at decreasing the risk of quid pro
quo arrangements or their appearance because they
make a candidate less dependent upon an individual
or group of individuals for financial support, especially
in a state like Alaska where the cost of campaigns for
state or municipal office are relatively low. Lower
limits often increase the donor base and decrease the
impact of an individual contribution, thus making it
easier for a candidate to decline a contribution
contingent upon the performance of a political favor.
Consistent with Professor Painter’s expert testimony,
Croft testified that the higher the contribution limit,
“it’s harder and harder to turn that down.”
Finally, with respect to the individual-to-group
contribution limit, the Court finds that Defendants
have made the appropriate showing that Alaska Stat.
15.13.070(b)’s individual-to-group limit focuses
narrowly on the State’s interest in reducing the risk of
quid pro quo corruption or its appearance, as it works
to keep contributors from circumventing the $500
individual-to-candidate base limit. The Supreme
Court
in
McCutcheon
affirmed
that
the
anticircumvention interest originally recognized in
Federal Election Commission v. Beaumont 35 remains
valid after Citizens United. 36 Alaska’s campaign
35 539 U.S. 146 (2003), overruled on other grounds by Citizens
United, 558 U.S. 310.
36 McCutcheon, 134 S. Ct. at 1456; accord Thalheimer, 645 F.3d
at 1125 (“[T]here is nothing in the explicit holdings or broad
reasoning
of
Citizens
United
that
invalidates
the

App-62
finance laws define a “group” as “two or more
individuals acting jointly who organize for the
principal purpose of influencing the outcome of one or
more elections and who take action the major purpose
of which is to influence the outcome of an election.” 37
Under Alaska Stat. 15.13.070(c), a group that is not a
political party may contribute up to $1,000 per year to
a candidate. Without the $500 individual-to-group
limit, an individual could make unlimited donations to
a group, $1,000 of which could then be passed on to the
candidate—double the individual-to-candidate limit.
2.

Amassing sufficient resources to
effectively campaign

In addition to their argument that the $500 base
limits set forth in Alaska Stat. 15.13.070(b) do not
focus narrowly on the State’s interest in avoiding
actual or apparent quid pro quo corruption, Plaintiffs
argue that those limits are unconstitutionally low
under the third prong of Eddleman’s “closely drawn”
test. While it is certainly true that a contribution limit
that is too low “could itself prove an obstacle to the
very electoral fairness it seeks to promote,” 38 the
Supreme Court in Buckley specifically rejected the
contention that $1,000, or any other amount, was a
constitutional minimum below which legislatures
anticircumvention interest in the context of limitations on direct
candidate contributions.”).
37

Alaska Stat. 15.13.400(8)(A).

38 Randall, 548 U.S. at 248-49 (“[C]ontribution limits that are
too low can also harm the electoral process by preventing
challengers from mounting effective campaigns against
incumbent
officeholders,
thereby
reducing
democratic
accountability.”).

App-63
could not regulate. 39 It instead held that courts should
determine “the outer limits of contribution regulation
by asking whether there was any showing that the
limits were so low as to impede the ability of
candidates to ‘amas[s] the resources necessary for
effective advocacy.’” 40 In making that determination,
the Ninth Circuit has instructed courts to “look at all
dollars likely to be forthcoming in a campaign, rather
than the isolated contribution” and to “consider factors
such as whether the candidate can look elsewhere for
money, the percentage of contributions that are
affected, the total cost of a campaign, and how much
money each candidate would lose.” 41
In this case, Plaintiffs claim that the $500 base
limits set forth in Alaska Stat. 15.13.070(b) are not
closely drawn because they do not allow candidates in
Alaska, and in particular challengers in competitive
races, to amass the resources necessary for effective
advocacy. But Plaintiffs’ evidence does not show that
Alaska’s $500 base limits are “‘so radical in effect as to
render political association ineffective, drive the sound
of a candidate’s voice beyond the level of notice, and
render contributions pointless.’” 42 Michael Gene
Pauley, a campaign manager and consultant whom
the Court qualified as an expert in Alaska political
campaigns, testified that he considers Alaska’s $500
39

21).
40

Shrink Missouri, 528 U.S. at 397 (citing Buckley, 424 U.S. at
Id. (quoting Buckley, 424 U.S. at 21).

41 Lair, 798 F.3d at 742 (quoting Eddleman, 343 F.3d at 1094
(internal citations omitted)).
42 Eddleman, 343 F.3d at 1094 (quoting Shrink Missouri, 528
U.S. at 397).

App-64
base limits to be too low because they are not indexed
for inflation, because the cost of campaigns is
generally increasing, and because the limits are
annual in nature. Pauley further testified that most
challengers in Alaska do not enter political races in
the off year. Plaintiffs also offered the testimony of
Senator Coghill, who testified that he has always been
able to raise sufficient funds to run an effective
campaign, but that it was “just harder” under the
current $500 limits than under the $1,000 limits
because “the lower limits do cause you to have to go
broad.” In other words, it requires more work.
Plaintiffs also called Clark Bensen, a consultant
and a former director of political analysis for the
Republican National Committee whom the Court
qualified as an expert “in the area of analyzing
campaign finance data for the purpose of determining
whether contribution limits permit candidates to
amass the resources that they need to mount effective
campaigns,” to testify at trial. Based on his analysis of
campaign finance data for the State of Alaska, Bensen
opined that the $500 base limits set forth in Alaska
Stat. 15.13.070(b) are unconstitutionally low because
candidates in competitive campaigns often spend
more than they raise and because those candidates
would be able to raise more money if the $500 limits
were instead $750 or $1,000. The Court, however, does
not find Bensen’s testimony to be credible. At trial, Mr.
Bensen acknowledged that his analysis was based on
exaggerated estimates and therefore flawed. He
stated, “I didn’t do a very sophisticated
analysis . . . . It’s not like I didn’t do it, but I didn’t do
it well, shall we say, or completely.”

App-65
In support of the $500 base limits set forth in
Alaska Stat. 15.13.070(b), Defendants called expert
witnesses
Thomas
Begich
and
John-Henry
Heckendorn to provide their opinions as to whether
Alaska’s current contribution limits interfere with a
candidate’s ability to amass the resources necessary
for effective advocacy. 43 Begich is a political consultant
with extensive experience working, consulting, and
volunteering for Alaska campaigns. Heckendorn is
also a political consultant who served as the political
director for the Alaska Democratic Party in 2014 and
now
co-owns
a
political
and
commercial
communications firm with offices in Anchorage and
Juneau. Begich and Heckendorn both testified that
candidates, whether challengers or incumbents, can
run effective campaigns under the current limits and,
to use Begich’s words, “have done so.” As an example,
Begich cited Matt Claman’s campaign for state house
in 2014 in which Claman was able to raise upwards of
$110,000 under the current contribution limits.
Begich and Heckendorn also testified that the
candidate who raises the most money does not
necessarily win the election. Heckendorn explained at
trial that in 2012, three of the eight competitive state
senate races and seven of the fourteen competitive
state house races were won by the candidate who
raised less money than his opponent—“almost a 50/50
split in terms of campaigns that raise more money
being successful and campaigns that raised less
money being successful.” According to Begich, this is
because a number of factors other than the amount of
43 The Court qualified both Begich and Heckendorn as experts
on political campaigns in Alaska.

App-66
money available to a candidate influence a candidate’s
success and ability to run an effective campaign,
including demographics, the quality of the candidate,
and the cost of the candidate’s campaign.
To this end, Begich and Heckendorn took issue
with Plaintiffs’ testimony that the cost of campaigns is
increasing. Begich testified that while the cost of
certain parts of a campaign may be increasing, it is
not, in fact, getting more expensive to run campaigns:
“[T]he cost of a campaign depends on the technology
you apply, and those costs change. So you can’t use a
direct period of inflation to reflect that.” Heckendorn
testified that evolution in fundraising techniques and
in social media and digital advertising has
significantly improved both the cost-efficiency and
effectiveness of campaigns, particularly at the local
level. Consistent with this testimony, defense witness
Croft testified that the production and dissemination
of video advertising has “gotten much simpler and
cheaper” since his first campaign back in 1996.
Finally, Begich and Heckendorn testified that
Alaska’s campaign contribution limits do not, as
Plaintiffs claim, favor incumbents over challengers,
nor do the limits prevent challengers from running
effective campaigns. Their opinions are bolstered by
the results of the most recent Alaska primary
elections, in which Alaska voters dispatched seven
incumbents from the Alaska Legislature. 44
44 Nathaniel Herz & Devin Kelly, Incumbents Feel Sting of
Voters in Alaska Primary Election (Aug. 24, 2016), available at
https://www.adn.com/slideshow/visual/photos/2016/08/16/alaska
-votes-in-2016-primary-election/.

App-67
In light of the above evidence, the Court finds that
in the period since the current $500 base limits
became effective, candidates for state elected office,
including challengers in competitive races, have been
able to raise funds sufficient to run effective
campaigns. The Court therefore holds that the $500
base limits set forth in Alaska Stat. 15.13.070(b)
further the sufficiently important interest in reducing
the risk of quid pro quo corruption or its appearance,
and are neither “too low” nor “too strict” 45 so as to run
afoul of the First Amendment.
b.

Count Three: Nonresident Aggregate
Limit

Plaintiffs next challenge the provision of Alaska’s
campaign finance laws that prohibits an individual
seeking the office of state representative, municipal
office, or office other than governor, lieutenant
governor, or state senator from accepting more than
$3,000 per year from an individual who is not a
resident of Alaska. 46 Plaintiffs challenge the
nonresident aggregate limit set forth in Alaska Stat.
15.13.072(e)(3) under both the First Amendment and
the equal protection and privileges or immunities
clauses of the Fourteenth Amendment.
In evaluating the constitutionality of Alaska’s
aggregate nonresident limit, Plaintiffs claim the Court
should apply strict scrutiny because the aggregate
limit, once reached for a candidate, prevents all other
nonresidents from contributing any amount to that
particular candidate. Alternatively, Plaintiffs argue
45

Randall, 548 U.S. at 248.

46

Alaska Stat. 15.13.072(a); Alaska Stat. 15.13.072(e)(3).

App-68
strict scrutiny applies in light of their equal protection
challenge. Plaintiffs’ first argument for strict scrutiny
fails under the Supreme Court’s opinion in
Beaumont. 47 In Beaumont, the Supreme Court
rejected the plaintiff’s argument that a strict level of
scrutiny should apply to a statute banning political
contributions from certain sources, explaining that
“the level of scrutiny is based on the importance of the
political activity at issue to effective speech or political
association” and that “restrictions on political
contributions have been treated as merely ‘marginal’
speech restrictions subject to a rather complaisant
review under the First Amendment.” 48
Nor can Plaintiffs obtain strict scrutiny of the
nonresident limit set forth in Alaska Stat.
15.13.072(e)(3) by invoking equal protection. Indeed,
the Court of Appeals for the District of Columbia in
Wagner v. Federal Election Commission rejected this
“doctrinal gambit” in clear and uncertain terms:
Although the Court has on occasion applied
strict scrutiny in examining equal protection
challenges
in
cases
involving
First
Amendment rights, it has done so only when
a First Amendment analysis would itself have
required such scrutiny. There is consequently
47

539 U.S. at 161-62.

Id. (explaining that “degree of scrutiny turns on the nature
of the activity regulated”); see also Family PAC v. McKenna, 685
F.3d 800, 811 (9th Cir. 2012) (holding contribution limits, even
those that operate as a ban, not subject to strict scrutiny);
Vannatta v. Keisling, 151 F.3d 1215, 1220 (9th Cir. 1998)
(nothing the Ninth Circuit “has applied less-than-strict, rigorous
scrutiny to total restrictions on contributions”).
48

App-69
no case in which the Supreme Court has
employed strict scrutiny to analyze a
contribution
restriction
under
equal
protection principles. 49
Moreover, to the extent Plaintiffs’ Fourteenth
Amendment claims are not subsumed by their First
Amendment claim, 50 their equal protection claim fails
because Alaska residents and nonresidents are not

793 F.3d 1, 32 (D.C. Cir. 2015), cert. denied sub nom. Miller
v. FEC, 136 S. Ct. 895 (2016); see also Wagner v. FEC, 854 F.
Supp. 2d 83, 95 (D.D.C. 2012), vacated on other grounds, 717 F.3d
1007 (D.C. Cir. 2013) (“If strict scrutiny were to apply to equalprotection claims in the area of campaign contributions, it would
lead to the anomalous result that a statutory provision could
survive closely drawn scrutiny under the First Amendment, but
nevertheless be found to violate equal-protection guarantees
because of its impingement upon the very same rights.”); Orin v.
Barclay, 272 F.3d 1207, 1213 (9th Cir. 2001) (holding that an
equal protection claim was “no more than a First Amendment
claim dressed in equal protection clothing” and was thus
“subsumed by, and co-extensive with” the First Amendment
claim); John E. Nowak, Ronald D. Rotunda & J. Nelson Young,
Handbook on Constitutional Law (1978) (“It is generally
unnecessary to analyze laws which burden the exercise of First
Amendment rights by a class of persons under the equal
protection guarantee, because the substantive guarantees of the
Amendment serve as the strongest protection against the
limitations of these rights.”).
49

Wagner, 793 F.3d at 33 (“But in a case like this one, in which
there is no doubt that the interests invoked in support of the
challenged legislation classification are legitimate, and no doubt
that the classification was designed to vindicate those interests
rather than disfavor a particular speaker or viewpoint, the
challengers ‘can fare no better under the Equal Protection Clause
than under the First Amendment itself.’”).
50

App-70
similarly situated with respect to state elections. 51
Plaintiffs’ privileges and immunities claim fails for a
similar reason; the right to make a contribution to a
candidate running of office in another state does not
“bear[] upon the vitality of the Nation as a single
entity.” 52
Turning to the First Amendment challenge,
Plaintiffs stated in their summary judgment papers
and at oral argument on the parties’ summary
judgment motions that they are challenging the
“common unconstitutional denominator of the
discriminatory
aggregation
of
nonresident
contributions” that Alaska Stat. 15.13.072(a) and
(e)(3) impose upon nonresident contributors, but not
the $3,000 aggregate limit amount itself. They argue
that Defendants “presented no evidence of a nexus
between residency and quid pro quo corruption or its
appearance,” and that Alaska’s nonresident aggregate
contribution limit is unconstitutional under
McCutcheon and Vannatta. 53 The Court disagrees.
In McCutcheon, the Supreme Court considered
the constitutionality of a provision of the Federal
Election Campaign Act of 1971, as amended by the
See Wright v. Incline Vill. Gen. Improvement Dist., 665 F.3d
1128, 1140 (9th Cir. 2011) (stating an equal protection claim
“fails ab initio” without evidence that similarly situated persons
are treated differently).
51

Council of Ins. Agents & Brokers v. Molasky-Arman, 522 F.3d
925, 934 (9th Cir. 2008).
52

53 Plaintiffs argue that the nonresident limit is also
unconstitutional under Whitmore v. FEC, 68 F.3d 1212, 1216 (9th
Cir. 1996). The Court, however, does not consider Whitmore on
point.

App-71
Bipartisan Campaign Reform Act of 2002, that limited
how much money a contributor could contribute in
total to all political candidates or committees under
the First Amendment. Noting that a court must be
“particularly diligent in scrutinizing the law’s fit” in
the context of an aggregate limit, 54 the Court found “a
substantial mismatch between the Government’s
stated objective and the means selected to achieve it” 55
and consequently struck down the aggregate limit at
issue in that case. But even as it struck down the
provision, the plurality opinion recognized that
aggregate limits, when appropriately tailored, can
further an anticorruption interest. 56
In Vannatta, the Ninth Circuit considered the
constitutionality of an Oregon ballot measure which
prohibited state candidates from using or directing
any contributions from out-of-district residents and
penalized candidates when more than ten percent of
their total “funding” came from such individuals. 57 It
held that the measure “fail[ed] to pass muster under
the First Amendment,” in large part because the
measure “ban[ned] all out-of-district donations,
regardless of size or any other factor that would tend
to indicate corruption” and because the appellants
54

McCutcheon, 134 S. Ct. at 1458.

55

Id. at 1446.

Id. at 1450 (“[W]e do not doubt the compelling nature of the
‘collective’ interest in preventing corruption in the electoral
process. But we permit Congress to pursue that interest only so
long as it does not unnecessarily infringe an individual’s right to
freedom of speech; we do not truncate this tailoring test at the
outset.”).
56

57

151 F.3d at 1218.

App-72
were “unable to point to any evidence which
demonstrates that all out-of-district contributions
lead to the sort of corruption discussed in Buckley.” 58
The decision does not suggest, as Plaintiffs claim, that
any campaign finance law that limits the dollar
amount a candidate may accept from nonresidents
runs afoul of the First Amendment as a matter of law.
Moreover,
Alaska
Stat.
15.13.072
is
distinguishable from the provisions at issue in
McCutcheon and Vannatta. In particular, unlike the
provision at issue in McCutcheon, Alaska Stat.
15.13.072(a) and (e)(3) do not limit the total amount of
money an individual can contribute during an election
cycle. Rather, Alaska Stat. 15.13.072 is directed at the
amount of out-of-state money a candidate for state or
municipal office may accept; 59 once the nonresident
aggregate limit is reached, a nonresident retains the
ability to contribute to a political party or other group
that supports the candidate. And unlike the measure
at issue in Vannatta, Alaska Stat. 15.13.072 does not
ban all nonresident contributions. 60
More importantly, and unlike the defendants in
those cases, Defendants in this case did produce
evidence at trial establishing a nexus between the
prevention of quid pro quo corruption or its
appearance and the nonresident aggregate limit set
58

Id. at 1221.

Contra McCutcheon, 134 S. Ct. at 1461 (“For our purposes
here, it is enough that the aggregate limits at issue are not
directed specifically to candidate behavior.”).
59

60 See Vannatta, 151 F.3d at 1221 (noting challenged measure
“bans all out-of-district donations, regardless of size or any other
factor that would tend to indicate corruption”).

App-73
forth in Alaska Stat. 15.13.072. At trial, Dr. McBeath
testified that the unique combination of Alaska’s small
population, geographic isolation, and great natural
resources make it extremely dependent on outside
industry and interests. He explained that because it is
enormously expensive to develop Alaska’s natural
resources and because that amount of capital is not
available locally, Alaska is dependent on outside firms
to invest in the infrastructure and provide the labor
necessary to extract its natural resources. He further
testified that such dependency makes Alaska
especially vulnerable to exploitation by outside
industry and interests, citing the Alaska Syndicate as
an early example of such exploitation. 61
In addition to Dr. McBeath’s testimony, Professor
Painter opined that Alaska’s nonresident aggregate
limit furthers the State’s interest in avoiding actual or
apparent quid pro quo relationships. Citing the
number of foreign and out-of-state corporations
involved in natural resource extraction in Alaska and
the fact that profits from that extraction are often sent
out of state, Professor Painter explained that the
interests of those corporations are frequently in
conflict with the interests of Alaska residents who
absorb the externalities of extraction while only
getting some of the monetary benefits. He further
testified that natural resource extraction rarely can be
61 The Alaska Syndicate was formed in 1906 by J.P. Morgan
and the Guggenheim Family and came to control vast amounts
of Alaska’s natural resources, including the Kennecott Copper
Mine. Between 1906 and 1938, it is estimated that the Syndicate,
as put by Dr. McBeath, “pulled out of Alaska a couple of hundred
million dollars . . . and left precious little behind them.”

App-74
accomplished without the cooperation of government,
and that natural resource extraction firms can and do
exert pressure on their employees to make
contributions to state and municipal candidates.
Based on that evidence, the Court concludes that
the State has presented adequate evidence that the
nonresident aggregate limit set forth in Alaska Stat.
15.13.072(a) and (e)(3) furthers Alaska’s sufficiently
important interest in preventing quid pro quo
corruption or its appearance in two ways. First, the
nonresident aggregate limit furthers the State’s
anticorruption interest directly by avoiding large
amounts of out-of-state money from being contributed
to a single candidate, thus reducing the appearance
that the candidate feels obligated to outside interests
over those of his constituents. Second, the nonresident
aggregate limit discourages circumvention of the $500
base limit and other game-playing by outside
interests, particularly given APOC’s limited ability
and jurisdiction to investigate and prosecute out-ofstate violations of Alaska’s campaign finance laws.
Whether Alaska’s nonresident aggregate limit is
closely drawn to further the State’s anticorruption
interest remains an open question. As explained
above, Plaintiffs’ challenge to Alaska Stat.
15.13.072(a) and (e)(3) does not raise that issue, and
the Court has not evaluated, and has no opinion on,
the provision’s fit.
c.

Count Four: Political Party Aggregate
Limit

Finally, Plaintiffs challenge the provision of
Alaska’s campaign finance laws that prohibits a
political party, including any subordinate unit of that

App-75
group, from contributing more than $5,000 per year to
a candidate seeking municipal office. As with Count
III, Plaintiffs clarified in their summary judgment
papers and at oral argument that they are not
claiming that the $5,000 limit is unconstitutionally
low, but rather are challenging the “unconstitutional
concept of discriminatory aggregation of party
components” that Alaska Stat. 15.13.070(d)(4),
together with Alaska Stat. 15.13.400(15), imposes on
political parties. Plaintiffs, however, have not
explained how Alaska’s political party aggregate limit
interferes with First Amendment free speech and
associational freedoms. A subordinate unit of a
political party chooses to affiliate with the party, and
Alaska’s campaign finance laws treat political parties
more favorably, not less favorably, than individuals or
groups that are not a political party. 62
IV. CONCLUSION
When this case was first filed, the Court was
skeptical that Defendants would be able to defend any
of the provisions of Alaska’s campaign finance laws at
issue in this case. But, for the reasons stated above,
the Court finds that Defendants have presented
adequate evidence that the $500 base limits set forth
in Alaska Stat. 15.13.070(b) further the sufficiently
important state interest of preventing quid pro quo
corruption or its appearance and that those
limitations are closely drawn to that end; that the
$3,000 nonresident aggregate limit set forth in Alaska
Stat. 15.13.072 furthers the sufficiently important
62 Compare Alaska Stat. 15.13.070(d), with Alaska Stat.
15.13.070(b) and Alaska Stat. 15.13.070(c).

App-76
state interest of preventing quid pro quo corruption or
its appearance; and that the political party aggregate
limit does not trigger First Amendment concerns, at
least under Plaintiffs’ theory of the case. Accordingly,
the challenged provisions of Alaska’s campaign
finance laws are upheld as constitutional.
IT IS SO ORDERED.
Dated at Anchorage, Alaska, this 7th day of
November, 2016.
/s/ Timothy M. Burgess
TIMOTHY M. BURGESS
UNITED STATES
DISTRICT JUDGE

App-77
Appendix D
RELEVANT STATUTORY PROVISIONS
Alaska Stat. § 15.13.070 (2006)
Sec. 15.13.070. Limitations on amount of political
contributions.
(a)
An
individual
or
group
may
make
contributions, subject only to the limitations of this
chapter and AS 24.45, including the limitations on the
maximum amounts set out in this section.
(b)

An individual may contribute not more than
(1) $500 per year to a nongroup entity for the
purpose of influencing the nomination or election
of a candidate, to a candidate, to an individual
who conducts a write-in campaign as a candidate,
or to a group that is not a political party;
(2) $5,000 per year to a political party.

(c)
A group that is not a political party may
contribute not more than $1,000 per year
(1) to a candidate, or to an individual who
conducts a write-in campaign as a candidate;
(2) to another group, to a nongroup entity, or to a
political party.
(d)
A political party may contribute to a candidate,
or to an individual who conducts a write-in campaign,
for the following offices an amount not to exceed
(1) $100,000 per year, if the election is for
governor or lieutenant governor;
(2) $15,000 per year, if the election is for the state
senate;

App-78
(3) $10,000 per year, if the election is for the state
house of representatives; and
(4) $5,000 per year, if the election is for
(A) delegate to a constitutional convention;
(B) judge seeking retention; or
(C) municipal office.
(e)
This section does not prohibit a candidate from
using up to a total of $1,000 from campaign
contributions in a year to pay the cost of
(1) attendance by a candidate or guests of the
candidate at an event or other function sponsored
by a political party or by a subordinate unit of a
political party;
(2) membership in a political party, subordinate
unit of a political party, or other entity within a
political party, or subscription to a publication
from a political party; or
(3) co-sponsorship of an event or other function
sponsored by a political party or by a subordinate
unit of a political party.
(f)
A nongroup entity may contribute not more
than $1,000 a year to another nongroup entity for the
purpose of influencing the nomination or election of a
candidate, to a candidate, to an individual who
conducts a write-in campaign as a candidate, to a
group, or to a political party.

App-79
Alaska Stat. § 15.13.072 (2006)
Sec. 15.13.072. Restrictions on solicitation and
acceptance of contributions.
(a)
A candidate or an individual who has filed with
the commission the document necessary to permit that
individual to incur election-related expenses under AS
15.13.100 may not solicit or accept a contribution from
(1) a person not authorized by law to make a
contribution;
(2) an individual who is not a resident of the state
at the time the contribution is made, except as
provided in (e) of this section;
(3) a group organized under the laws of another
state, resident in another state, or whose
participants are not residents of this state at the
time the contribution is made; or
(4) a person registered as a lobbyist if the
contribution violates AS 15.13.074(g) or AS
24.45.121 (a)(8).
(b)
A candidate or an individual who has filed with
the commission the document necessary to permit the
individual to incur election-related expenses under AS
15.13.100 , or a group, may not solicit or accept a cash
contribution that exceeds $100.
(c)
An individual, or one acting directly or
indirectly on behalf of that individual, may not solicit
or accept a contribution
(1) before the date for which contributions may be
made as determined under AS 15.13.074 (c); or

App-80
(2) later than the day after which contributions
may not be made as determined under AS
15.13.074 (c).
(d)
A candidate or an individual who has filed with
the commission the document necessary to permit that
individual to incur election-related expenses under AS
15.13.100 for election or reelection to the state
legislature may not solicit or accept a contribution
while the legislature is convened in a regular or
special legislative session unless the solicitation or
acceptance occurs
(1) during the 90 days immediately preceding an
election in which the candidate or individual is a
candidate; and
(2) in a place other than the capital city.
(e)
A candidate or an individual who has filed with
the commission the document necessary to permit that
individual to incur election-related expenses under AS
15.13.100 may solicit or accept contributions from an
individual who is not a resident of the state at the time
the contribution is made if the amounts contributed by
individuals who are not residents do not exceed
(1) $20,000 a calendar year, if the candidate or
individual is seeking the office of governor or
lieutenant governor;
(2) $5,000 a calendar year, if the candidate or
individual is seeking the office of state senator;
(3) $3,000 a calendar year, if the candidate or
individual is seeking the office of state
representative or municipal or other office.
(f)
A group or political party may solicit or accept
contributions from an individual who is not a resident

App-81
of the state at the time the contribution is made, but
the amounts accepted from individuals who are not
residents may not exceed 10 percent of total
contributions made to the group or political party
during the calendar or group year in which the
contributions are received.
(g)
A candidate or an individual who has filed with
the commission the document necessary to permit that
individual to incur election-related expenses under AS
15.13.100 for election or reelection to the office of
governor or lieutenant governor may not solicit or
accept a contribution in the capital city while the
legislature is convened in a regular or special
legislative session.
(h)
A nongroup entity may solicit or accept
contributions for the purpose of influencing the
nomination or election of a candidate from an
individual who is not a resident of the state at the time
the contribution is made or from an entity organized
under the laws of another state, resident in another
state, or whose participants are not residents of this
state at the time the contribution is made. The
amounts accepted by the nongroup entity from these
individuals and entities for the purpose of influencing
the nomination or election of a candidate may not
exceed 10 percent of total contributions made to the
nongroup entity for the purpose of influencing the
nomination or election of a candidate during the
calendar year in which the contributions are received.

